<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2004 budget 
request for programs within the subcommittee's jurisdiction.]

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety needs of public transportation 
systems. We appreciate the subcommittee's interest in transportation 
security, and we look forward to working with the subcommittee as it 
develops the fiscal year 2004 appropriations bill for the Department of 
Homeland Security.
                               about apta
    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over 90 percent of persons using public transportation in 
the United States and Canada are served by APTA member systems.
                   public transportation and security
    Mr. Chairman, we do not need to emphasize the critical importance 
of keeping our Nation's surface transportation infrastructure secure in 
this time of heightened national security. In that connection, APTA is 
honored to play a critical role in public transportation security. We 
work closely with a number of Administration security agencies, and 
administer an industry audit program that oversees a system safety and 
security management plan for transit systems around the country. Our 
safety audit program for commuter rail, bus, and rail transit 
operations has been in place for many years, and contains security 
planning and emergency preparedness elements. Separately, in connection 
with Presidential Decision Directive Number 63, we are pleased to have 
been designated a Public Transportation Sector Coordinator by the 
Department of Transportation, and as my testimony notes below, we are 
establishing a Transit Information Sharing Analysis Center that 
provides a secure two-way reporting and analysis structure for the 
transmission of critical alerts and advisories to transit agencies 
around the country.
    Since the events of 9/11, State and local public transit agencies, 
like all State and local entities, have spent significant sums on 
police overtime, enhanced planning and training exercises, and capital 
improvements related to security. In response to an APTA survey, 
transit agencies around the country have identified some $6 billion in 
transit security needs. These include both one-time capital investments 
and recurring operating expenses related to security. It is important 
to note that these costs are above and beyond the capital 
infrastructure needs we have identified under the TEA 21 
reauthorization effort. Mr. Chairman, my testimony summarizes these 
security needs in greater detail below in the ``Security Investment 
Needs'' section.
    We also note that Congress just concluded the conference agreement 
on the fiscal year 2003 supplemental appropriations bill (H.R. 1559) 
that funds a number of homeland security programs, including some $2.2 
billion for formula and discretionary grants to enhance the capability 
of State and local jurisdictions to prepare and respond to terrorist 
attacks. This measure includes funding for overtime expenses related to 
increased security by State and local entities. Transit agencies, as 
local public bodies, are expected to be eligible recipients for such 
funding, which will be administered by the Homeland Security 
Department's Office of Domestic Preparedness.
                               background
    Mr. Chairman, prior to and following September 11, 2001--the date 
of the most devastating terrorist attack in United States history--APTA 
has been heavily involved in addressing the safety and security issues 
of our country. American public transportation agencies have also taken 
significant measures to enhance their security and emergency 
preparedness efforts to adjust to society's new state of concern. 
Although agencies were largely secure at the time of the World Trade 
Center and Pentagon attacks and already had emergency response plans in 
place, the September 11 incidents energized and prioritized security 
efforts throughout the industry.
    Transit agencies have had a good safety record and have been 
working for many years to enhance their system security and employee 
security training, partly responding to government standards, APTA 
guidelines, and attacks on transit agencies abroad. For example, the 
1995 sarin gas attack in the Tokyo subway system caused United States 
transit properties managing tunnels and underground transit stations to 
go on high alert. The San Francisco Bay Area Rapid Transit District, 
for instance, responded to the possible threat of chemical weapons 
attacks by sending a police team to Fort McClellan, Alabama, in 1996 to 
learn response tactics from United States Army chemical weapons 
experts.
    In the months following September 11, transit agencies of all sizes 
worked to identify where they might be vulnerable to attacks and 
increased their security expenses for both operations and capital 
costs. The agencies subsequently upgraded and strengthened their 
emergency response and security plans and procedures, taking steps to 
protect transit infrastructure and patrons and increase transit 
security presence while giving riders a sense of security.
    Transit industry services are, by design and necessity, an open 
infrastructure. Over 9 billion transit trips are taken annually on all 
modes of transit service. This is more than sixteen times the level on 
domestic air travel trips and emphasizes the challenges for enhancing 
security within our transit environments.
    After September 11, many transit organizations worked to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. Many transit 
agencies report being more secure than prior to September 11, but 
suggest that many improvements are still in the planning stages.
    Since the attacks, APTA and the Federal Transit Administration have 
emphasized the need for effective transit security and emergency 
preparedness. FTA has sent security resources toolkits to transit 
agencies; completed security-vulnerability assessments of the nation's 
largest transit systems; and provided technical support and grants of 
up to $50,000 to fund agency emergency drills.
    FTA continues to provide emergency preparedness and security forums 
nationwide. In emphasizing the importance of enhancing transit 
security, FTA Administrator Jennifer L. Dorn noted that thousands of 
lives were spared on September 11 in New York City and Washington 
``because of the quick action of first responders and transit 
workers.''
    APTA has launched many additional efforts to further transit 
industry security and preparedness, collaborating with FTA in 
developing emergency preparedness forums, and sponsoring and organizing 
security-related conferences and workshops. Moreover, APTA developed a 
list of critical safety and security needs faced by the transit 
industry, which it has provided to the Department of Transportation and 
the United States Congress.
    public transportation information sharing analysis center (isac)
    Presidential Decision Directive #63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a public 
transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA recently formalized an agreement with a private company to 
implement the ISAC and make it available to public transit systems 
around the country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Office of Homeland Security.
                   ongoing transit security programs
    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alert, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force under the leadership of Washington 
Metro's CEO, Richard A. White. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects that are being 
implemented through over $2 million in Transit Cooperative Research 
funding through the Transportation Research Board.
    Through this funding, four transit security workshop forums were 
held for the larger transit systems with potentially greater risk 
exposure. These workshops were held in confidential settings to enable 
sharing of security practices and applying methodologies to various 
scenarios. The outcomes from these workshops were made available in a 
controlled and confidential format to other transit agencies unable to 
attend the workshops. The workshops were held in New York, San 
Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA web-site. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and directions and to continually 
work towards raising the bar of safety and security effectiveness.
    Within this concept of partnership and outreach, APTA also 
continues in its ongoing collaboration with the Federal Transit 
Administration to help in guiding and developing FTA programs. Among 
these are regional Emergency Preparedness and Security Planning 
Workshops that are currently being delivered through the Volpe Center 
and have been provided in numerous regions throughout the United 
States. The primary focus of such workshops has been to assist 
particularly smaller transit systems in building effective emergency 
response plans with first responders and their regional offices of 
emergency management. Also within this partnership, APTA has assisted 
the FTA and the National Transit Institute in the design of a new 
program ``Security Awareness Training for Frontline Employees and 
Supervisors.'' This program is now being provided by NTI to transit 
agencies throughout the nation.
    Collaborative efforts between APTA, FTA, Volpe Center, and the 
National Transit Institute are also underway to establish a joint web-
site that will specifically gather and disseminate effective transit 
practices with initial emphasis on safety and security.
    As you may be aware, APTA has long-established Safety Audit 
Programs for Commuter Rail, Bus, and Rail Transit Operations. Within 
the scope of these programs are specific elements pertaining to 
Emergency Response Planning and Training as well as Security Planning. 
In keeping with our industry's increased emphasis on these areas, the 
APTA Safety Audit Programs have similarly been modified to place added 
attention to these critical elements.
    APTA's Committee on Public Safety, chaired by Paul Lennon, Managing 
Director-Intelligence and Counterterrorism, Los Angeles County, 
Metropolitan Transportation Authority, will continue to provide a most 
critical forum for transit security professionals to meet and share 
information, experiences and programs and to also provide valuable 
input to programs being developed by the FTA.
                       security investment needs
    Mr. Chairman, APTA has conducted a nationwide survey of its transit 
system membership that sought information about the level of need for 
security and safety investments for the specific transit property. The 
survey was not intended to be an inclusive list of all needed security 
and safety projects. On the basis of the survey, APTA has identified 
areas of investment needs related to transit security. The areas and 
needs are--
    For personnel, $500 million for ongoing cost of staffing for 
increased security planning, surveillance, patrols, and response to 
alert notifications.
    For training, ongoing costs of $50 million for the development and 
delivery of internal security programs; participation in established 
security programs external to transit agencies; internal and inter-
agency emergency preparedness drills; and for national and regional 
security workshops/symposiums through government, industry and 
partnered initiatives.
    For a one-time cost of technical support, $100 million for security 
and emergency preparedness plan development/refinement; comprehensive 
security needs assessments; and infrastructure security plan 
development.
    For a one time cost infrastructure and rolling stock security, $5.1 
billion for communications, surveillance, detection systems and 
equipment for enhancing security of rolling-stock, stations, 
facilities, rights-of-way, bridges tunnels, electronic and other 
systems.
    For emergency response support equipment, $100 million for personal 
protective and detection equipment for personnel; support vehicles and 
equipment for emergency response and recovery.
    In support of national defense, a one-time cost of $50 million for 
development/refinement of evacuation plans; and mobilization of public 
transit systems for evacuation needs.
    For aid for extraordinary expenditures not including New York City, 
or Washington, D.C., a one-time cost of $50 million for aid for 
extraordinary expenditures for transit agencies that have incurred 
significant expenses to date for costs associated with security and 
recovery initiatives that are in need of cost relief.
    For research and development, ongoing costs of $50 million for 
research and development of systems that will enhance detection of 
security; and for threats in mass transit environments.
    In sum, transit industry security investment needs result in 
capital and operational investment needs of some $6 billion.
    We respectfully ask that as the Subcommittee takes up the fiscal 
year 2004 Homeland Security Appropriations bill it consider these 
critical needs for Federal investment in transit security. It is 
important to note that after September 11, 2001, the necessity has 
become apparent to appropriately fund a new state of heightened 
security to combat against potential threats to our nation's public 
transportation system. As noted earlier, these security needs are 
distinct from the infrastructure needs we have identified in connection 
with the TEA 21 reauthorization.
                               conclusion
    Mr. Chairman, these are just some of the issues and Federal 
investments that we believe can be made to improve safety and security 
of transit services. We again thank you and the Subcommittee for your 
commitment to investing in the nation's transportation infrastructure 
and look forward to working with you on safety and security issues.
                                 ______
                                 

  Prepared Statement of the Association of State Dam Safety Officials

    The Association of State Dam Safety Officials (ASDSO) is pleased to 
offer testimony on the President's proposed fiscal year 2004 budget for 
the Department of Homeland Security.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,200 State, Federal and local dam safety 
professionals and private sector individuals dedicated to improving dam 
safety through research, education and technology transfer. ASDSO also 
represents the 50 State dam safety programs, as the State dam safety 
officials are the governing body of the Association. Our goal is simple 
to save lives, prevent property damage and to maintain the many 
benefits of dams by preventing dam failures.
    During the 1970's this country suffered devastating dam failures 
that caused tragic loss of life and enormous property damage; and 
focused national attention on the catastrophic consequences of dam 
failures. Those failures serve as a constant reminder that dams must 
always be properly constructed, properly designed and properly operated 
and maintained to provide the benefits and prevent failures.
    Today our focus in not only on the safety of dams related to 
maintenance issues but on security as the Nation faces a significant 
challenge to protect our infrastructure from terrorist attacks. Dams 
are a major concern and focus of national planning within the 
Department of Homeland Security.
National Dam Safety Program
    The National Dam Safety Program Act of 1996 (Public Law 104-303) 
created the first national program that focuses on improving the safety 
of the nation's dams. The Program was recently reauthorized by the Dam 
Safety and Security Act of 2002 (Public Law 107-310). This small, yet 
critical program provides much needed assistance to the State dam 
safety programs in the form of grant assistance, training and research; 
and through facilitating the exchange of technical information between 
Federal dam safety partners and the States. The program provides $6 
million in grant assistance to States based on the relative number of 
dams in each State. The grants may be utilized to best suit the 
individual State's needs. In addition, the National Dam Safety Program 
provides $500,000 each year to be used for training of State dam safety 
engineers and $1.5 million annually for research. These research funds 
are used to identify more effective methods of evaluating the safety of 
dams and more efficient techniques to repair dams. And now, these 
research funds go toward developing better methods to assess and 
improve the security of dams.
    There are over 79,000 dams in the United States, but the 
responsibility of assuring their safety falls on the shoulders of the 
States, as they regulate 95 percent of the country's dams. Because of 
limited staff and limited funding, most states are overwhelmed by that 
challenge. Table 1 attached to this testimony provides state-by-state 
data on the number of dams, the number of staff, the state budget and 
the number of dams that are considered ``unsafe.'' Unsafe means that 
they have identified deficiencies that make the dam more susceptible to 
failure, which may be triggered by a large storm event, an earthquake 
or simply through inadequate maintenance. Currently states have 
identified 2,332 dams as being unsafe. There are over 10,000 dams 
classified as ``high hazard'' meaning that the consequences of the 
dam's failure will likely include loss of human life and significant 
downstream property damage.
    Every member of this Subcommittee has high hazard dams in their 
home state. There are 757 high hazard dams in Pennsylvania, 277 high 
hazard dams in Mississippi and 245 dams in West Virginia whose failure 
will likely cause loss of life. According to the National Inventory of 
Dams more than 25 percent of the high hazard potential dams have not 
been inspected in the last 10 years. High hazard potential dams should 
be inspected every year. Many states do not regulate all of their dams. 
In Missouri, for example, there are 4,000 dams on the National 
Inventory, however, Missouri only regulates 638 dams.
    The task for state dam safety programs is staggering; in 
Mississippi there are over 3,300 dams yet there are only two engineers 
assigned to the state's dam safety program. Iowa has less than one 
staff person in their dam safety program to oversee 3,233 dams.
    The American Society of Civil Engineers' 2001 Report Card for 
America's Infrastructure gave a grade of ``D'' to dams. The dams across 
the United States are aging and showing signs of the lack of routine 
maintenance. 25 percent of the nation's dams are over 50 years old, and 
by 2020 85 percent of the dams will be 50 years or older.
    Downstream development within the dam failure flood zone places 
more people at risk. When homes are built in the dam failure flood zone 
below a low hazard dam, (low hazard: failure is not expected to cause 
loss of life or significant property damage) the dam no longer meets 
dam safety criteria as the consequences of a failure determine the 
hazard class and the minimum safety standards.
    In summary, adequate support for dam safety regulatory programs is 
lacking in many states. Insufficient regulatory authority, inadequate 
enforcement and staffing shortages combine to increase the probability 
of a tragic dam failure.
Federal Leadership Role
    There is a clear need for continued Federal leadership to provide 
assistance in support of dam safety. This country suffered several 
large and tragic dam failures in the 1970s that focused attention on 
dams and prompted Congress to pass national dam safety legislation. In 
1972, the Buffalo Creek Dam in West Virginia failed and killed 125 
individuals. That failure also left 3,000 people homeless. In 1976, the 
Federally owned Teton Dam failure killed 14 people and cost $1 billion 
in downstream damages and cleanup costs.
    The Kelly Barnes Dam in Toccao Falls, Georgia failed in 1977 
killing 39 Bible college students. That same year, 40 people died from 
the failure of the Laurel Run Dam in Pennsylvania. The majority (58 
percent) of dams in the United States are privately owned, including 
the 38 foot tall Meadow Pond Dam in Alton, New Hampshire which failed 
killing one woman and causing $8 million in damage to the downstream 
town in the late 1990s.
    Dam failures do not respect state boundaries as a dam failure in 
one state may cause loss of life and property damage in an adjacent 
state. The Federal government funds the recover costs from the 
President's disaster relief fund and through the Flood Insurance 
Program, but the cost of one small dam failure can easily exceed the 
annual costs of the National Dam Safety Program. Full funding of the 
National Dam Safety Program is an investment in public safety that will 
be repaid many times over in fewer dam failures, reduced Federal 
expenditures for dam failure recovery costs and, most importantly, 
fewer lives lost.
    The Association of State Dam Safety Officials respectfully requests 
that Subcommittee increase the President's budget proposal of $5.9 
million to the full-authorized funding level of $8.6 million for the 
National Dam Safety Program for fiscal year 2004.
Benefits of the National Dam Safety Program
    The National Dam Safety Program has been very successful in 
assisting the state programs through the training funds ($500,000) for 
training states dam safety engineers. This training has offered low 
cost technical courses and workshops that states could otherwise not 
attend. Examples include Dambreak Analysis, Concrete Rehabilitation of 
Dams, Slope Stability of Dams, Earthquake Analysis, Emergency Action 
Planning and many others including recent training in Dam Site 
Security. Training courses are also offered through FEMA's training 
facility at their Emergency Management Institute in Maryland where 
state dam safety inspectors receive training at no cost to the states.
    The Research funds have been used to identify future research needs 
such as inspections using ground penetrating radar or thermal 
tomography. In addition, these funds have been used to create a 
national library and database of dam failures and dam statistics in the 
National Performance of Dams Program at Stanford University as well as 
a national clearinghouse and library of dam safety bibliographic data 
at ASDSO.
    The Research funds will continue to provide technical assistance to 
the dam safety community and, now will be essential in identifying 
techniques and methods of assessing dam security as well as practical 
means to improve the security at critical dams. Dam site security is 
now an urgent area of concern for state dam safety officials both in 
training needs and in research to better understand and respond to 
potential threats to dams.
    The most valuable benefit to the state programs comes from the 
State Grant Assistance Program. The grants are based on the number of 
dams in each of the participating states and are used as an incentive 
to encourage states to improve their program by meeting basic criteria 
such as:
  --Statutory authority within the state to conduct inspections of 
        dams.
  --Authority to require repairs to unsafe dams.
  --Authority to regulate all dams that meet the national dam 
        definition.
    Use of these grants is left up to the states' discretion as each 
state has its own unique challenges. States have utilized grant funds 
to perform dam failure and dam stability analyses; hire additional 
staff to conduct inspections and to conduct owner education workshops. 
In addition, grant funds have enabled states to provide additional 
staff training, to purchase equipment such as computers, field survey 
equipment and software; and remote operated cameras for internal 
inspections.
    Mississippi received nearly $600,000 over fiscal year 1998 through 
fiscal year 2002 in grant assistance funds. Mississippi's dam safety 
program hosted dam safety workshops for engineers and dam owners. The 
grant assistance also enabled Mississippi to hire additional part time 
dam inspectors and to purchase needed field equipment.
    West Virginia, with their total $145,000 grant, was able to repair 
large capacity pumps, owned by the State, which are now strategically 
located and can be used in emergencies. West Virginia also used with 
their grant funds to update their dams inventory database and they will 
be seeking to hire summer interns to assist with emergency action 
plans.
    Iowa, which received $423,000 from fiscal year 1998 to fiscal year 
2002, has hired four part time dam inspectors and has conducted 75 dam 
inspections in fiscal year 2002.
    In Pennsylvania, the $279,000 dam safety assistance grants have 
been used to purchase remote operated inspections cameras and global 
positioning equipment to improve their inspections. They have also used 
the funding to produce and distribute public awareness videos and 
Emergency Action Plan guidelines. Pennsylvania has hired an additional 
engineer to support the National Dam Safety Program efforts in 
Pennsylvania.
    Kentucky has received over $250,000 from fiscal year 1998 through 
fiscal year 2002 and has used these funds to purchase computer 
equipment and software for its dam inventory database and to provide 
specialized training for engineers in hydraulic evaluations of dams. 
Futures uses include training workshops for dam owners and the public.
    The grant assistance program has been very successful. The number 
of dam inspections has increased, the number of Emergency Action Plans, 
used for evacuation in the event of a dam failure, have increased; and 
states have better technical equipment to conduct inspections and 
perform safety analyses and dam failure modeling.
    Table 2 attached to this testimony provides information on the 
amount of state grant assistance received for each state over the 5-
year program.
Dam Security of non-Federal Dams
    The horrific events of September 11, 2001 have focused 
unprecedented attention on the security of our nation's critical 
infrastructure, including dams. Dams, in fact, have been identified by 
intelligence and law enforcement agencies in specific threat alerts. 
Federal agencies that own dams, such as the U.S. Army Corps of 
Engineers and the Bureau of Reclamation, have been conducting 
vulnerability assessments and security improvements on these Federally 
owned dams. While the Association certainly supports this necessary 
effort, little has been provided by the Federal Government in 
leadership or assistance to the states who have similar and equally 
urgent dam security demands.
    Security experts advise that it is very difficult to make a site 
completely safe from intentional acts of terror. They offer that their 
goal is to enhance security and effectively deter a potential attack at 
their site so that the terrorist will seek another site with less 
security. The improved security at Federally-owned dams makes non-
Federal dams more attractive targets. There are clearly thousands of 
non-Federal dams that are potential targets based on type of 
construction, size, purpose (water supply, hydro power, flood control); 
and on the population and infrastructure at risk below the dam. Federal 
leadership is urgently needed to provide technical and financial 
assistance to states for training, for conducting vulnerability 
assessments and for identifying and implementing security improvements 
on dams determined to have an inadequate security program.
    The Association of State Dam Safety Officials respectfully requests 
that this Subcommittee appropriate $15 million in fiscal year 2004 for 
assistance to state dam safety programs to address security at critical 
non-Federal dams, which are regulated, by the states.
Conclusion
    Dams are a vital part of our aging national infrastructure that 
provide many vital benefits, but that also pose a threat to life and 
property if they are unsafe. The National Dam Safety Program is a 
valuable program that offers assistance to states as an investment in 
public safety. We urge you to recognize its benefits and support full 
funding to continue the progress we have made.
    In addition, we strongly urge this Subcommittee to recognize that 
large non-Federal dams are also potential targets of terrorist attacks; 
and that people and critical infrastructure below these dams are also 
at risk. States need the leadership and support of Congress and the 
Administration to provide the necessary level of security at all 
critical dams.
    Thank you Mr. Chairman and Members of the Subcommittee for this 
opportunity offer this testimony. The Association looks forward to 
working with you and the Subcommittee staff on this important issue of 
safe dams.

                                      TABLE 1.--STATE-BY-STATE STATISTICS ON DAM AND STATE SAFETY REGULATION--2003
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                           No. State
                                  Total Dams in    Total Dams      High-Hazard       State-       State Dam Safety   No. State Staff     Regulated Dams
             State                  National       Under State      Potential      Determined        Budget (       Dedicated to Dam  Per FTE Staff (to
                                  Inventory \1\  Regulation \2\  State Dams \3\  Deficient Dams      thousand)      Safety Regulation    nearest whole
                                                                                       \4\                                                    no.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama \5\....................           1,570           1,704             184             150              $0                  0                >1,704
Alaska.........................             112              81              16         ( \6\ )              98                  1                    81
Arizona........................             335             261              87              59             564                  6                    44
Arkansas.......................           1,290             427              98              25             264                  4.2                 102
California.....................             523           1,213             335               0           7,900                 65                    18
Colorado.......................           1,733           1,883             317             191           1,440                 12                   157
Connecticut....................             707           2,000             236              12             472                  4.3                 465
Delaware \5\...................              73              98               9         ( \6\ )         ( \6\ )            ( \6\ )               ( \6\ )
Florida........................             778             778             100               8           5,000                 38                    20
Georgia........................           4,977           3,412             399             105             682                 10                   341
Hawaii.........................             129             129              56               0             135                  2                    65
Idaho..........................             360             439             106         ( \6\ )             350                  7.5                  59
Illinois.......................           1,226           1,311             173              20             345                  5.5                 238
Indiana........................           1,472           1,129             238         ( \6\ )             340                  5                   226
Iowa...........................           3,233           3,311              73         ( \6\ )              55                   .75              4,415
Kansas.........................           5,859           5,821             192              34             250                  5.1               1,141
Kentucky.......................           1,022             991             214               0           1,517                 14                    71
Louisiana......................             391             304              12              11             261                  5                    61
Maine..........................             845             841              26              68              46                  1                   841
Maryland.......................             299             407              63               6             415                  5                    80
Massachusetts..................           1,528           2,917             333              40             500                  4                   729
Michigan.......................             873           1,156              83         ( \6\ )             400                  4.5                 257
Minnesota......................             932             852              40         ( \6\ )             237                  2.2                 387
Mississippi....................           3,303           3,550             277              53             268                  2                 1,775
Missouri.......................           4,096             638             445              16             288                  6                   106
Montana........................           3,522           2,871              97               7             170                  5                   574
Nebraska.......................           2,155           2,155             107              10             284                  5.2                 414
Nevada.........................             323             592             123              24             130                  2                   296
New Hampshire..................             613           3,281              85               0             612                  7                   469
New Jersey.....................             777           1,651             194              48             950                 16                   103
New Mexico.....................             525             382             156         ( \6\ )             469                  5.5                  69
New York.......................           1,891           5,021             380             54+             746                  6.32                795
North Carolina.................           2,939           4,241             988              53             902                 14                   303
North Dakota...................             772           1,779              27              3+             200                  4.5                 395
Ohio...........................           1,727           2,709             471             450           1,100                 11.5                 235
Oklahoma.......................           4,507           4,348             145               6             185                  1.8               2,415
Oregon.........................             833           3,733             122               0             255                  3.1               1,204
Pennsylvania...................           1,412           3,025             757              49           1,698                 22.5                 134
Puerto Rico....................              36              36              33               2             466                  8                     5
Rhode Island...................             185             528              16              98              78                  1.1                 528
South Carolina.................           2,263           2,304             153               3         ( \6\ )                  4.5                 512
South Dakota...................           2,469           2,328              47               3         ( \6\ )                  2.5                 931
Tennessee......................           1,154             643             151              33             275                  7                    92
Texas..........................           6,838           8,060             851             403             300                  5                 1,612
Utah...........................             676           4,083             199              84             450                  7                   583
Vermont........................             364             538              54         ( \6\ )             215                  2.2                 245
Virginia.......................          1,603+          1,300+            150+             50+             400                  6                   217
Washington.....................             653             903             128              31             550                  6.5                 139
West Virginia \5\..............             537             350             245              40             335                  6                    59
Wisconsin......................           1,291           3,402             192         ( \6\ )             486                  6.5                 523
Wyoming........................           1,270           1,374              66               3             131                  3.4                 404
                                ------------------------------------------------------------------------------------------------------------------------
      TOTAL....................          79,001          97,290          10,049           2,252          33,214.00             380.17   26,639 (522 av.)
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Includes dams of any size that are likely to pose a significant threat to human life or property in case of failure, and all other Federal and non-
  Federal dams > 25 high that impound > 15 acre-feet; and dams > 6 high that impound > 50 acre-feet.
\2\ Estimated number of all dams under state regulatory control.
\3\ High-Hazard by state definition derived from state inventory in column 2 Individual states' definitions may differ from the Federal (National
  Inventory of Dams) definition. * indicates figure taken from NID and based on NID definition.
\4\ Dams with identified deficiencies by state definition (varies state to state) derived from state inventory in column 2.
\5\ For Alabama and Delaware, this data precedes 2001. West Virginia data is from 2001.
\6\ NR Not Reporting. Some states do not keep data on these categories.



         TABLE 2.--STATE GRANT AMOUNTS FOR FISCAL YEAR 1998-2002
------------------------------------------------------------------------
                                            Total State
                                            Assistance     Annual State
                                            Grant (from     Dam Safety
                  STATE                     Fiscal Year       Budget
                                            1998-Fiscal   (excludes FEMA
                                            Year 2002)        grants)
------------------------------------------------------------------------
Alabama.................................              $0              $0
Alaska..................................         112,324              98
Arizona.................................         130,843             564
Arkansas................................         157,811             264
California..............................         280,791           7,900
Colorado................................         330,607           1,440
Connecticut.............................         202,245             472
Delaware................................          94,351              NR
Florida.................................         183,005           5,000
Georgia.................................         631,703             682
Hawaii..................................         118,691             135
Idaho...................................         159,357             350
Illinois................................         280,257             345
Indiana.................................         229,213             340
Iowa....................................         423,456              55
Kansas..................................         992,576             250
Kentucky................................         247,527           1,517
Louisiana...............................         144,942             261
Maine...................................         192,198              46
Maryland................................         152,106             415
Massachusetts...........................         325,251             500
Michigan................................         203,799             400
Minnesota...............................         223,966             237
Mississippi.............................         593,107             268
Missouri................................         189,641             288
Montana.................................         509,441             170
Nebraska................................         395,736             284
Nevada..................................         161,613             130
New Hampshire...........................         212,013             612
New Jersey..............................         307,762             950
New Mexico..............................         165,560             469
New York................................         430,227             746
North Carolina..........................         651,658             902
North Dakota............................         183,060             200
Ohio....................................         351,921           1,100
Oklahoma................................         745,806             185
Oregon..................................         259,440             255
Pennsylvania............................         279,410           1,698
Puerto Rico.............................         105,329             466
Rhode Island............................         135,981              78
South Carolina..........................         424,436              NR
South Dakota............................         396,560              NR
Tennessee...............................         184,474             275
Texas...................................       1,078,772             300
Utah....................................         178,777             450
Vermont.................................         149,160             215
Virginia................................         178,087             400
Washington..............................         174,066             550
West Virginia...........................         145,062             335
Wisconsin...............................         239,939             486
Wyoming.................................         292,522             131
                                         -------------------------------
      Total.............................      14,936,579          33,214
------------------------------------------------------------------------

                                 ______
                                 

Prepared Statement of the Association of State Floodplan Managers, Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on four specific aspects of the fiscal year 
2004 budget proposal for the Department of Homeland Security, Emergency 
Preparedness and Response Directorate (FEMA):
  --Oppose elimination of the Hazard Mitigation Grant Program;
  --Preserve the Flood Mitigation Assistance Program;
  --Continue support for modernization of flood maps; and
  --Financial status of the National Flood Insurance Program.
    The Association of State Floodplain Managers, Inc. and its 16 state 
chapters represent over 5,000 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.
Oppose Elimination of the Hazard Mitigation Grant Program
    ASFPM opposes the suspension or elimination of the Hazard 
Mitigation Grant Program (HMGP). HMGP has proven to be a very effective 
way to achieve mitigation. The Disaster Mitigation Act of 2000 that 
requires communities to have mitigation plans in order to access HMGP 
assures that projects will be done according to pre-disaster plans. We 
object to the budget's proposal to replace HMGP entirely with a 
nationwide competitive grant program. We believe the logic behind this 
proposal is not sound: it ignores the realities of why individual 
citizens participate in mitigation; it ignores a multitude of benefits 
that are difficult to quantify; it ignores the recently authorized 
requirement for local mitigation planning; it ignores the leveraging of 
state and local funds that often are made available post-disaster; it 
ignores the complexities of project implementation; it ignores the 
distinct differences between hazards; and it ignores the needs of small 
communities.
    HMGP mobilizes financial and technical assistance in the aftermath 
of disasters--exactly the time when citizens and elected officials are 
most receptive to undertaking projects and initiatives that reduce the 
impacts of future disasters. The fact is that most cities, counties and 
towns across the country have many immediate and pressing financial 
needs. Regardless of the statistical evidence of the likelihood of 
future disaster occurrence, communities will not place mitigation 
higher than today's demands for education, social programs, local first 
responders, and the like. This is especially true in smaller 
communities where financial resources are always tight.
    On the proverbial ``sunny day'' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners view offers for buyouts, elevations, and retrofit 
floodproofing very differently when they are shoveling mud, coping with 
toxic mold, or faced with collapsed foundations. The budget proposal 
will have many adverse consequences, not the least of which is that 
people who have just experienced damage and are most receptive to 
change are much less likely receive mitigation assistance since post-
disaster HMGP will not be allocated to their states.
    ASFPM is greatly concerned about the criticism expressed by some 
people that a large percentage of HMGP projects do not appear to be 
cost effective. While shifting to a purely competitive program may mean 
``the most cost-beneficial projects receive funding,'' it will turn 
mitigation into a numbers game that ignores the needs of many. A 
single-minded focus on the projects with the highest benefit:cost ratio 
will severely penalize many communities that have good projects that 
will reduce taxpayer costs, and thus are cost-effective for the Nation.
    There is an important conceptual distinction between cost-
beneficial and cost-effective. The process for determining benefits and 
costs is less than perfect, and as currently structured it yields 
skewed results. Too often, projects that are more expensive to the 
taxpayer have higher benefit:cost ratios, even though a less costly 
project achieves the same objective of hazard reduction. This 
illustrates only one unintended consequence of relying on B:C to decide 
which projects get funded.
    ASFPM also urges consideration of another unintended consequence of 
the focus on the projects with the highest benefit:cost ratio. For 
years, other agencies with flood control responsibilities routinely 
dismissed non-structural measures (such as floodplain acquisition or 
elevation-inplace) even though these non-structural projects can be 
demonstrated to be cost-effective. Such projects tended to be dismissed 
in favor of structural measures (levees, dams, floodwalls), in large 
part because such projects often have a higher benefit: cost ratio, yet 
ignoring the long-term operation and maintenance costs often borne by 
communities. However, time and time again, there has been evidence of 
the multiple benefits of non-structural measures. A single focus on the 
benefit:cost ratio will result in fewer non-structural flood mitigation 
projects and increased long-term costs for government, as well as 
residual risk associated with structural projects.
    Pre-disaster funding should be directed to community-based planning 
in order to prepare communities to undertake mitigation projects when 
the disaster strikes. It would also be reasonable to make pre-disaster 
mitigation funds available to support public works projects that 
address potential damage to state and community buildings and public 
infrastructure--among the more costly categories of public disaster 
assistance.
    ASFPM urges the Subcommittee to retain the Hazard Mitigation Grant 
Program and restore its funding level to 15 percent of certain Federal 
disaster expenditures.--The Disaster Mitigation Assistance Act of 2000 
calls for communities to have pre-disaster local mitigation plans in 
order to access HMGP. One result of this requirement is that 
communities will be better prepared to identify eligible activities 
after the next declared disaster, thus further shortening the time 
needed to obligate and expend the HMGP funds.
    ASFPM strongly recommends that the Subcommittee focus the pre-
disaster mitigation funds on support of cost-effective projects, as 
opposed to the most cost-beneficial projects.--This simple change will 
make a dramatic difference in supporting non-structural projects for 
floodplain management, while not detracting from projects that retrofit 
buildings to resist the effects of earthquakes and hurricane winds.
    ASFPM recommends that the Subcommittee direct FEMA to fully 
investigate the implications of the nationwide pre-disaster program 
funded in fiscal year 2003.--Particular attention should be paid to 
citizen, community and state receptivity to mitigation offers and how 
the ability to cost share differs in the pre- and post-disaster 
periods. Another critical aspect to attend to is how FEMA proposes to 
balance between different hazards, different geographic areas, and 
communities of different sizes and capabilities.
Preserve the Flood Mitigation Assistance Program
    The Flood Mitigation Assistance Program (FMA) authorized by the 
National Flood Insurance Reform Act of 1994 is funded entirely by flood 
insurance premium income that is paid by individual policyholders. It 
is not funded from general funds and therefore we are concerned with 
proposals to combine it with other mitigation funds, even to achieve 
accounting efficiencies. To ensure accountability to the policyholders 
and to ensure that these funds are used only for the explicit purposes 
authorized, the FMA funds are best kept separate. In particular, how 
FMA is administered must not be changed. FMA is specifically intended 
to support cost containment for the NFIP, in part by addressing the 
problem characterized as repetitive losses, but also to mitigate 
against severe flood damage and imminent threats due to coastal 
erosion.
    ASFPM urges the Subcommittee to clarify that Flood Mitigation 
Assistance Program funds are not to be co-mingled with other pre-
disaster mitigation funds.--In addition, we urge that the Subcommittee 
direct that FMA continue to be administered as a separate program under 
existing procedures.
Continue Support for Flood Map Modernization
    Good flood maps play a major role in disaster cost reduction 
through wise floodplain management. They also serve many purposes 
beyond the immediate needs of the National Flood Insurance Program. 
FEMA estimates that local regulation of flood hazard areas, using the 
flood maps, avoids property losses of nearly $1 billion each year. 
These savings accrue to property owners, communities, and taxpayers. 
FEMA's estimate does not count the benefits associated with using the 
maps to guide development to less hazard-prone areas. Flood maps yield 
benefits at all levels of government, including reducing the need for 
Federal disaster assistance when people build elsewhere or build to 
minimize damage. Since 1986, most of the funding for flood maps has 
been taken out of the National Flood Insurance Fund, which is funded by 
premiums and service fees from about 4.2 million flood insurance 
policyholders. Those funds are inadequate to the task of modernizing 
the inventory of over 100,000 flood map panels.
    The Flood Map Modernization effort will use current technologies to 
expedite cost-effective collection of mapping data, and to develop the 
models to identify flood-prone areas. This will yield digitized map 
products that will be accessible on the Internet. Digitized maps will 
also significantly reduce current outlays that are spent just to 
correct old maps in response to individual property owner concerns, 
thus allowing more of the base funding derived from policyholders 
(approximately $50 million/year) to be used more effectively.
  --ASFPM strongly endorses the Administration's request for $200 
        million, and urge the addition of $200 million, to continue 
        FEMA's map modernization initiative.--The continuance of this 
        second year funding will ensure progress on the mufti-year 
        effort that is now underway. The additional funding will 
        shorten the overall timeframe and help state and communities 
        that have had identified priorities for several years ago.
Financial Status of the National Flood Insurance Program
    The Association of State Floodplain Managers believes that the 
National Flood Insurance Program is an exceptional example of the 
Federal Government working with state partners, community partners, and 
private sector partners. Established in 1968 in part to shift the 
burden of recovery to people who are at-risk (in the floodplain), the 
NFIP was carefully crafted by Congress to balance the need to pay 
insurance claims with concerns about financial impacts on homeowners 
and business owners who pay premiums on flood insurance policies. To 
that end, the NFIP establishes rates based on the ``average loss 
year,'' and thus intentionally does not build up substantial reserves 
for years when floods occur more frequently. To pay claims in those 
years, the NFIP borrows from the U.S. Treasury.
    ASFPM believes that criticism often heard when the NFIP goes into 
borrowing authority is unjustified. The Federal Insurance Administrator 
recently testified to the efficiency of this original Congressional 
mandate. Tropical Storm Allison hit the Gulf Coast in June of 2001, and 
continued inland to flood states across the southeast. It was the 
NFIP's first billion-dollar storm and prompted borrowing of $600 
million. In just 16 months, those funds were repaid, with interest. The 
NFIP is one of the government's best creditors.
    The NF1P is not supported in any other way by the United States 
taxpayer. A service fee charged on all policies pays for the program's 
administration, including: salaries and expenses of over 200 Federal 
employees; costs of contractors that support servicing policies and 
claims; a portion of flood mapping costs; the Flood Mitigation 
Assistance Program (described above); and grants to states to provide 
technical assistance to communities and property owners. Thus, only 
about 4.2 million citizens are paying for this program that serves the 
Nation as a whole. ASFPM believes this make it all the more important 
that the NFIP's funds be tracked separately so that accountability to 
the policyholder is clear.
    ASFPM understands that there will be a small increase in NFIP-
funded Community Assistance Program in fiscal year 2004. This program 
is a good return to policyholders because it provides small, cost-
shared grants to the states to provide partial support of state 
floodplain programs. CAP is critical to implementation of the NFIP 
because it facilitates direct technical assistance and training 
available to nearly 20,000 communities and millions of property owners. 
The best way to limit increases in future damage is to ensure that 
communities are properly administering their floodplain management 
regulations and that developers are complying with the rules. FEMA's 
staff is too small to provide this vital assistance to nearly 20,000 
communities, thus the partnership with states was established. ASFPM 
appreciates this recognition of the importance of CAP funding to 
continue the State-Federal partnerships.
  --ASFPM supports the increase in CAP funding in order to increase the 
        technical assistance and training the states provide as FEMA's 
        partners.
    For information about ASFPM and this testimony, contact Larry 
Larson, Executive Director, at (608) 274-0123, or email 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2a3b1a4b2af82a4aeadada6b1ecadb0a5ec">[email&#160;protected]</a>
                                 ______
                                 

          Prepared Statement of the Fleet Reserve Association

             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any federal grant or contract during the 
current fiscal year or either of the two previous fiscal years.
                              introduction
    Thank you Mr. Chairman and other distinguished members of the 
Subcommittee for the opportunity to submit the Fleet Reserve 
Association's views on funding the fiscal year 2004 Coast Guard 
request. The Fleet Reserve Association (FRA) is a Congressionally 
Chartered, non-profit organization, representing the interests of U.S. 
Navy, Marine Corps, and Coast Guard personnel with regard to pay, 
health care, and other benefits.
    Before addressing specific issues, the Association wishes to thank 
Congress for its tremendous support for pay and benefit improvements 
enacted during the 107th Congress. Across the board and targeted pay 
increases, higher housing allowances, reform of the PCS process and 
increased funding for health care are significant improvements and 
perceived as important recognition of the service and sacrifice of the 
men and women serving in the Coast Guard, and those who've served in 
the past.
    The Association notes the significant progress toward ensuring 
Coast Guard parity with all pay and benefits provided to DOD services 
personnel in recent years and restates it commitment to this goal.
                         pay and benefit parity
    The Fleet Reserve Association appreciates and thanks the 
Administration and Congress for continued support for the pay and 
entitlements of Coast Guard personnel. These include increases in base 
pay, target pay raises for senior enlisted personnel and some officer 
grades and annual housing allowance increases. (BAH).
    The fiscal year 2004 Budget supports an average military pay raise 
of 4.1 percent with pay levels ranging from 2 percent for E-1s to 6.25 
percent for E-9s. The majority of members will receive an increase of 
3.7 percent and out of pocket housing costs will be reduced from 7.5 
percent to 3.5 percent in keeping with a multi-year plan to reduce the 
average out of pocket expense to zero by 2006.
    FRA recommends full-funding of all pay and entitlements for Coast 
Guard personnel and seeks continuing strong support for benefit parity 
with the Department of Defense.
    As a footnote, the Association is extremely disappointed that the 
Administration is proposing to cap the pay of NOAA and USPHS officers 
at 2 percent for fiscal year 2004. FRA strongly objects to this 
disparate treatment of these members of the uniformed services and 
urges you to intercede in their behalf with colleagues on the 
appropriate oversight committees to halt this plan and ensure pay 
comparability for these personnel.
                      recruiting and end strength
    The Coast Guard is in a period of large personnel and mission 
growth. The service continues to balance mission requirements against 
workforce strength and asset availability to ensure a safe operational 
tempo is maintained and missions are completed.
    FRA strongly supports recently authorized increased end strengths 
and urges adequate funding for same in fiscal year 2004. This is 
especially important given the Coast Guard's broad and demanding 
mission requirements related to its key position in the new Department 
of Homeland Security. The President's budget authorizes 1,788 military 
and 188 civilian positions and includes six Maritime Safety and 
Security Teams, 53 Sea Marshalls, two Port Security Units, and new 
Coast Guard Stations in Boston and Washington, D.C. Also included is 
support for the Search and Rescue (SAR) Program and to allow the 
stations to meet readiness requirements with watch standers maintaining 
a maximum 68-hour workweek.
    Recruiting, training, and deploying a workforce with the skills and 
experience required to carry out the Coast Guard's many missions is a 
formidable challenge. The overall experience level of the workforce 
decreased since 9/11 and during this large growth period it will 
require a few years to come back to that 2001 level.
    Enlisted workforce retention is the best it has been since 1994 
having increased by 2.1 percent since fiscal year 2000. The Coast Guard 
met its active duty recruiting goal in fiscal year 2002 and is on 
target to meet it again in fiscal year 2003. However, Reserve 
recruiting fell slightly short of the fiscal year 2002 goal but is on 
target for fiscal year 2003. The fiscal year 2004 budget recommends 
funds to fully train, support and sustain the Coast Guard's Selected 
Reserve Force as an integral part of Team Coast Guard with growth to 
10,000 personnel (up from 9,000 in fiscal year 2003).
    The Coast Guard training system is operating effectively at maximum 
level in order to process the growing number of trainees. Additional 
contract instructors have been hired at the training centers and 
temporary classrooms accommodate day and night classes to increase 
capacity and efficiency.
    FRA supports funding all recruiting initiatives and incentives. The 
Coast Guard's robust recruiting system coupled with enlistment bonuses 
has ensured a steady flow of recruits entering the service. The Coast 
Guard also opened new recruiting offices to target diversity rich 
communities.
                              health care
    FRA continues to work with Congress and DOD to ensure full funding 
of the Defense Health Budget to meet readiness needs and deliver 
services, through both the direct care and purchased care systems, for 
all uniformed services beneficiaries, regardless of age, status and 
location. The Association strongly supports TRICARE improvements 
recently enacted for active duty, Reserve and retired personnel and 
their families.
    Oversight of the Defense Health Budget is essential to avoid a 
return to the chronic under funding of recent years that led to 
execution shortfalls, shortchanging of the direct care system, and 
reliance on annual emergency supplemental funding requests. Even though 
supplemental appropriations were not needed last year, FRA is concerned 
that the current funding level only maintains the status quo. 
Addressing TRICARE provider shortfalls will require additional funding.
    Access to care is the number one concern challenging Coast Guard 
personnel assigned to duty in areas not served by military treatment 
facilities (MTFs). Some beneficiaries report that there are providers 
not willing to accept new TRICARE Standard patients. Areas most 
affected by this are: Alaska; Humboldt Bay/County, California (AIRSTA/
Group Humboldt Bay); Novato, California, and other Bay Area locations 
(Pacific Strike Team/TRACEN Petaluma/ISC Alameda); and Santa Barbara, 
California.
    In areas away from MTFs, access can be especially challenging. 
Providers do not wish to take TRICARE patients mainly due to the low 
reimbursement rates. In the locations where TRICARE Prime is present, a 
trend is developing whereby providers are leaving the network. This not 
only affects active duty service members and their dependents but 
retirees and their dependents.
    The message sent by The TRICARE Management Activity ``selling'' the 
three TRICARE options (Prime, Extra or Standard) only applies to those 
fortunate to live near an MTF that has an established network. These 
members have choices. If assigned to a high cost or remote/semi-remote 
area where Prime is not available, the only option is Standard. In 
addition, it is unfair for Coast Guard personnel to have to absorb the 
higher costs associated with health and dental care, including 
orthodontics in assignment areas. In reality there is no uniform 
benefit at this time since the three TRICARE options are not available 
to all beneficiaries nationwide.
    FRA urges the Subcommittee to provide appropriations to enhance the 
ability of Coast Guardsmen to have access to and afford adequate health 
care for their families.
                                housing
    FRA is concerned about Coast Guard housing challenges that include 
adequate appropriations for new construction and/or maintenance. While 
the objective is to ensure that all members have access to quality 
housing, whether for single personnel or personnel with families, the 
Commandant's people-oriented direction acknowledges the importance of 
quality of life, and the important role of housing in obtaining and 
retaining a productive workforce.
    During recent congressional testimony, Master Chief Petty Officer 
of the Coast Guard Frank Welch, stated that Coast Guard personnel and 
their families ``continue to face a lack of affordable and adequate 
housing in many of our assignment areas.''
    The following locations are deemed Critical Housing Areas (CHAs) 
for Coast Guard personnel.
  --Cape Hatteras, North Carolina (NC176)
  --Montauk, New York (NY218)
  --Cape May, New Jersey (NJ198)
  --Abbeville, Louisiana (ZZ553)
  --Port O'Connor, Texas (ZZ583)
  --Rockland, Maine (ME141)
  --Carrabelle, Florida (ZZ630)
  --Marathon/Islamorada, Florida (FL069)
  --Plus any area currently designated as a CHA by the U.S. Navy.
    The situation is exacerbated by assignment areas that are typically 
in or near remote, high-cost areas along the coasts.
    While housing allowances have increased, the availability of 
quality, affordable housing within a reasonable distance to work 
remains another challenge--especially for junior enlisted personnel. In 
certain areas, hyper increases in utility costs may also financially 
impact accompanied members residing on the economy and paying their own 
utilities. Although housing privatization initiatives are helping ease 
this challenge for the DOD Services and the Coast Guard's authority to 
participate in these ventures, FRA believes increased funds should be 
appropriated to address the Coast Guard's protracted housing problem.
                               child care
    Having available and accessible childcare is a very important 
quality of life issue for Coast Guard personnel and their families and 
the Administration's fiscal year 2004 Budget supports an expansion of 
this service.
    While comparing Coast Guard childcare parity with the Department of 
Defense is difficult--the childcare needs of Coast Guard personnel and 
their families are no different than for DOD services personnel. 
Approximately 640 children are in Coast Guard childcare facilities and 
FRA believes that this program should be adequately funded to ensure 
parity.
                           education benefits
    FRA strongly supports increased funding for education benefits. For 
fiscal year 2003, tuition assistance is paid at 100 percent up to $250 
per semester hour with an annual cap of $4,500 for Coast Guard 
personnel. This puts the service on a par with the Department of 
Defense.
    With regard to the MGIB program, participants may receive a full-
time student rate of $985/month or more, depending on whether they 
contribute to an increased benefit program. Recent enhancements are 
positive steps to improving this program, however FRA believes MGIB 
benefits should be benchmarked to the average cost of a four-year 
public college education.
    The Coast Guard adjusts discretionary funding to best address its 
particular needs. Hopefully, this Subcommittee will support the 
President's fiscal year 2004 budget recommending the Coast Guard to be 
fully competitive with DOD education benefits.
                               conclusion
    The Association again appreciates the opportunity to present its 
recommendations on the Coast Guard's fiscal year 2004 Budget and is 
grateful to this Distinguished Subcommittee for its great work in 
support of the men and women serving in our Nation's fifth Armed Force.
    The broad range of services and support provided by the Coast Guard 
are not fully understood and recognized by the American public. FRA is 
working to broaden awareness of the incredible work done by Coast Guard 
men and women in support of the service's many missions and our 
national security. Hopefully the service's well deserved prominence 
within the new Department of Homeland Security will help increase 
recognition of the Coast Guard's tremendous service to our great 
Nation.
                                 ______
                                 

      Prepared Statement of the Greater Orlando Aviation Authority

    Chairman Cochran and distinguished members of the Senate 
Appropriations Subcommittee on Homeland Security: The Greater Orlando 
Aviation Authority (``the Authority'') appreciates the opportunity to 
submit written testimony on the advancement of an in-line EDS baggage 
screening system for Orlando International Airport (OIA). The Authority 
recognizes and applauds the excellent and on-going assistance Congress 
has given in past efforts to obtain federal funding for critical 
capacity improvements at OIA.
    Orlando International Airport remains steadfast in its commitment 
to help restore public confidence and ensure the highest standard of 
security in air travel. The Authority has diligently developed and 
begun implementation of a comprehensive security enhancement program to 
meet the challenges resulting from the tragic events of September 11, 
2001.
    In addition, the Authority recognizes the importance in continuing 
support of enhanced security at OIA. The Authority supports the U.S. 
Department of Homeland Security's commitment to keep air travel 
security enhancement initiatives on track.
    The Authority respectfully requests your Subcommittee's 
consideration and support of our request for $50 million in funding 
which is essential to ensure the full and timely implementation of a 
Phase 2 Long-Term Checked Baggage Screening Solution using In-line EDS 
Equipment.
TSA Phase 2 Long-Term Checked Baggage Screening Solution
    The Transportation Security Administration (TSA) approved a Phase 1 
short-term solution to enable Orlando International Airport to meet 
Congress December 31, 2002 100 percent checked baggage-screening 
requirements. Together, TSA and the Authority established the following 
goals for the checked baggage screening functions at OIA:
  --Create an experience the traveler and customer see as safe, secure, 
        comfortable, efficient, and affordable.
  --Provide a well-studied recommendation to TSA on how to achieve 100 
        percent checked baggage screening specific to OIA's operations 
        and terminal layout.
  --Meet or exceed TSA checked baggage screening standards and 
        procedural requirements while maintaining efficiency of 
        passenger and baggage processing and flow.
  --Implement Phase 1 solution to meet the December 31, 2002 deadline 
        with Phase 2 solution intended for the long-term, permanent 
        solution.
    The temporary Phase 1 solution required the combined deployment of 
Explosive Detection Systems (EDS) and Explosive Trace Detectors (ETD) 
equipment throughout public areas within the airport's main terminal 
building. It is manpower and space intensive, requiring over 200 ETD 
operators per shift and constricting passenger movement and circulation 
through the airport.
    Passenger baggage in some areas must be manually transported from 
ticket counters to EDS/ETD devices positioned along the passenger 
walkways for screening and then returned to the ticket counter to be 
loaded on the plane, resulting in longer bag processing times and 
interference in passenger movement.
    Due to these shortcomings and other factors, the Authority 
continues to work with TSA in developing a long-term Phase 2 checked 
baggage screening solution that is integrated with existing baggage 
systems. Phase II is an automated solution that relies primarily on EDS 
technology, supplemented with ETD for false alarm resolution. Phase 2 
will be less manpower intensive and passenger intrusive as it is 
integrated into the existing baggage conveyance system. Simply put, it 
will be more secure, more customer friendly, and more efficient. It is 
anticipated that the Phase 2 solution could be completed in 22 months 
at an estimated cost of $50 million.
    The Authority respectfully requests a specific line item in the 
fiscal year 2004 Department of Homeland Security budget for $50 million 
to implement a Phase 2 Long-Term Baggage Screening Solution at Orlando 
International Airport.
Funding Justification for Orlando International Airport
    Orlando International Airport remains steadfast in its commitment 
to help restore public confidence and ensure the highest standard of 
safety and security in air travel.
    Orlando International Airport is one of the Central Florida's 
primary assets and has been designated as an U.S. Security Category X 
airport. In 2001, OIA served approximately 28.3 million passengers 
making it the 15th busiest commercial service airport in the nation and 
the 24th busiest in the world. In terms of origin and destination (O&D) 
passenger traffic at domestic airports, OIA ranked 5th behind Los 
Angeles International and traditional airline hub airports such as Las 
Vegas' McCarran International, Chicago's O'Hare International, and 
Atlanta's Hartsfield International. Importantly, this means OIA faces a 
unique responsibility to safely and efficiently process a large volume 
of checked passenger baggage entering the sterile security environment 
for the first time. In fact, O&D passengers represent approximately 85 
percent of all passengers at OIA. This high level of O&D activity is 
expected to continue, as well as our heightened responsibility to 
process the disproportionately large volume of checked baggage related 
to O&D traffic as it enters the secured system for the first time.

        TOP TEN ORIGINATION AND DESTINATION AIRPORTS IN THE U.S.
                              [In millions]
------------------------------------------------------------------------
               Rank                        Airport        O&D Passengers
------------------------------------------------------------------------
1.................................  Los Angeles (LAX)...            31.0
2.................................  Las Vegas (LAS).....            25.8
3.................................  Chicago (ORD).......            24.8
4.................................  Atlanta (ATL).......            24.3
5.................................  Orlando (MCO).......            22.2
6.................................  Phoenix (PHX).......            20.1
7.................................  New York (LGA)......            19.4
8.................................  New York (EWR)......            18.4
9.................................  Dallas (DFW)........            18.4
10................................  Seattle (SEA).......           18.3
------------------------------------------------------------------------
Source: U.S DOT OD1A database.

    OIA has scheduled service to 70 non-stop service plus 14 True-
Direct domestic and 14 non-stop and 10 True-Direct international 
destinations, promoting increased airline service and competitive 
fares. The largest rental car market in the world is located at OIA. 
The airport shares a unique relationship with the regional economy. A 
completed Economic Impact Study determined OIA generates a $14 billion 
annual economic impact on Central Florida and is responsible for 54,400 
direct and indirect jobs.
    The Authority is extremely fortunate to operate a commercial 
airport containing 13,297 acres of land. With these extraordinary 
resources, OIA is a critical component of the National Aviation System.
Regional and Economic Development Facts
    The Orlando region has positioned itself as an international force 
in global business. Department of Commerce statistics show that this 
region leads the state's major markets in terms of export growth. With 
a population exceeding 1.7 million, metropolitan Orlando is one of the 
fastest growing population and employment markets in the country with a 
solid infrastructure in place to support major high-tech growth.
    The region's private/public sectors work hand-in-hand with higher 
education institutions to enhance the region's climate for high-tech 
growth. Orlando has one of the most advanced telecommunications 
infrastructures in the southeast and the area's utility services are 
noted for reliability. With a civilian labor force exceeding 845,000--
more than 200,000 of whom possess a college degree--the region's 
residents are well educated. It is estimated that more than 1,100 new 
adult residents move to the metropolitan Orlando area each week, 
providing an additional pool of labor for companies. Metropolitan 
Orlando's median household income is higher than both Florida and 
national averages. Clearly, the metropolitan Orlando area exhibits the 
demographic and work force growth, prowess and potential that only the 
nation's very best business communities can offer.
    Orlando has become a world class meeting destination. The elegant, 
award-winning Orange County Convention Center, the second largest in 
the nation, will add one million square feet with its expansion, 
bringing the total exhibit space to a record 2.1 million square feet. 
This expansion, scheduled to open in 2003, will boost the center's 
space and services to accommodate meetings from mega-shows to smaller 
events. What's more, Orlando is transforming and enhancing its 
accommodations for meeting attendees with plans to add more than 23,000 
hotel rooms to the area's existing 99,000-room inventory.
    With its strategic geographical location within the Western 
Hemisphere, the state of Florida offers both a diverse culture and a 
flourishing business and industrial environment. With close to $370 
billion in gross state product, Florida's economy is ranked 5th largest 
in the Western Hemisphere and the 16th largest in the world--far 
outpacing other states in the Southeast. Florida's robust state economy 
provides nationally recognized support for business expansion, new 
investment and international trade. With an unparalleled multi-modal 
transportation network, Florida provides easy access to any global 
destination, thus providing the obvious solution for moving people, 
goods and services around the world--today, and continuing throughout 
the 21st century.
In Summary
    The Authority expresses its gratitude for the opportunity to 
present this testimony to your Subcommittee. The Senate's past support 
and interest in the development of the Authority's commercial airport 
is greatly appreciated. The Authority looks forward to working with you 
in advancing safety and security initiatives that will benefit the 
National Aviation System. We believe our request for $50 million to 
fund our permanent, Long-Term Phase 2 Checked Baggage Screening 
Solution using In-Line EDS Equipment is such an initiative.
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for this opportunity to provide a statement 
for the record regarding the fiscal year 2004 budget proposal for the 
Department of Homeland Security.
    My name is J.R. Thomas, and I am the emergency management director 
for Franklin County (which includes Columbus), Ohio. I currently serve 
as the President of the International Association of Emergency Managers 
(IAEM), whose membership is comprised of more than 2,000 of my 
colleagues from across the United States. We are city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
    We respectfully submit suggestions on three particular issues 
relating to the Department of Homeland Security budget for 2004.
    Emergency Management Performance Grants (EMPG):
  --Urge that funding be specifically designated in the Appropriations 
        Bill
  --Request that funding be increased from $165 million in 2003 to $300 
        million in 2004
  --Urge that this program be returned to the Emergency Preparedness 
        and Response Directorate (FEMA)
    Hazard Mitigation Grant Program (HMGP):
  --Oppose the budget request to eliminate the 404 HMGP program
  --Urge Subcommittee to retain the program and return the funding 
        level to 15 percent of certain eligible disaster costs
    Flood Map Modernization:
  --Support request for $200 million.
    Emergency Management Performance Grants (EMPG).--The Emergency 
Management Performance Grants are pass-through funds to state and local 
emergency management offices to provide a foundation for basic 
emergency preparedness and response capabilities. This funding has 
existed in the past under several different names such as Emergency 
Management Assistance and State and Local Assistance, but the dollars 
have always served the same purpose.
    The conferees on H.J.Res. 2, the Omnibus Appropriations Bill for 
fiscal year 2003, recognized the importance of this funding and 
specified $165,000,000 in legislative language for EMPG. In addition, 
the conference report (H. Report 108-10) stated the following:

    The conferees have taken this action because EMPG is the backbone 
of the nation's emergency management system, builds state and local 
emergency management capability, is the foundation for first responder 
activities, and because this important activity has been severely 
underfunded for many years. Now more than ever, the planning activities 
carried out in this program are of utmost importance.

    EMPG Not Specified in 2004 Budget.--The coordination function which 
EMPG supports faces an uncertain future within the Department of 
Homeland Security. What is certain is that the need for this grant 
program remains, and in fact, has dramatically increased due to recent 
Homeland Security efforts. We have been advised that state and local 
programs like EMPG are being consolidated into the Office of Domestic 
Preparedness under the Border and Transportation Security Directorate. 
However, no funding has been designated for this activity in the budget 
documents we have seen. The Budget in Brief for fiscal year 2004 for 
the Department of Homeland Security includes a request for $3.5 billion 
for the Office of Domestic Preparedness and specifies $500,000,000 for 
law enforcement grants, $500,000,000 for fire grants and $181,000,000 
for Citizen Corps, but contains no mention of the EMPG. In addition, in 
response to hearing questions from Members of Congress, Department of 
Homeland Security Officials have verified that no funding has been 
specified for this program.
    Importance of EMPG.--As America strives to promote homeland 
security and to advance first responder capability, several pressing 
needs are apparent, including:
  --Integrated comprehensive plans which involve stakeholders at all 
        levels
  --Interoperable communications
  --Standardization and expansion of training and exercising programs 
        which involve all response agencies
  --Regionalization of efforts to maximize effectiveness given limited 
        funding
  --Comprehensive critical infrastructure planning including both 
        public and private sectors
    It is the state and local emergency managers who orchestrate the 
efforts to meet these needs. The national emphasis on homeland security 
has generated major efforts requiring state and local governments to 
plan, train, exercise, and equip themselves for a variety of possible 
future emergencies, including those that result from terrorism. It is 
important to note that such planning and coordination does not 
generally emanate from the first responder agencies themselves, but 
from the efforts of state and local emergency managers. Given continued 
support and funding, emergency managers have the skills, the expertise, 
and the willingness to rise to the planning and coordinating challenges 
presented by the full range of hazards affecting their communities.
    Funding.--Historically, funding for EMPG has been inadequate. The 
program was intended to be 50 percent Federal and 50 percent state or 
local funding. Currently many jurisdictions receive 20 percent or less. 
State and local emergency management programs are in desperate need of 
financial support if they are to effectively implement the President's 
homeland security strategy in states, counties, cities and 
neighborhoods across America. Given the new security concerns arising 
from the War in Iraq, emergency management is more important than ever. 
It is imperative that adequate funding be allotted to EMPG so that 
emergency managers can continue to serve as a unifying force in the 
effort to preserve public safety and maintain homeland security as well 
as continue to meet the requirements of all hazard planning and 
coordination.
    We respectfully request the EMPG be increased from $165,000,000 to 
$300,000,000.
    Location of EMPG Program.--It is essential that the Directorate of 
Emergency Preparedness and Response and state and local emergency 
management offices continue to prepare and plan for floods, hurricanes, 
earthquakes, ice storms, tornadoes and other natural disasters as well 
as acts of terrorism. It is vital that the link between EMPG and those 
who integrate the programs on the Federal level be maintained. The 
focus of this particular grant program is much broader than training 
and purchase of equipment. It is a program that supports the foundation 
of emergency management for all hazards, including terrorism and for 
which deliverables are required. In order to maintain the critical 
federal, state and local emergency management infrastructure, the value 
of which has been demonstrated in hundreds of disasters over the past 
few years, the essential elements of that EMPG program should be moved 
back to Emergency Preparedness and Response Directorate.
Hazard Mitigation Grant Program (HMGP)
    The Administration's request for fiscal year 2004 would eliminate 
the 404 Hazard Mitigation Grant Program, which provides post-disaster 
funding and fund a pre-disaster mitigation program at $300 million per 
year. In order to reduce future disaster costs, commitments must be 
made to both pre-disaster and post disaster mitigation. Citizens and 
elected officials are most receptive to undertaking projects and 
initiatives that reduce the impacts of future disasters immediately 
after a disaster has occurred. Without the 404 funding, those 
opportunities will be missed. The fiscal year 2003 Omnibus 
Appropriations Bill reduced the 404 Hazard Mitigation Grant Program 
from an amount equivalent to 15 percent of eligible disaster costs to 
7.5 percent. We urge that the program be retained and that it be 
restored to the previous 15 percent.
Flood map Modernization
    IAEM supports the Administration's request for $200 million for 
flood map modernization. Flood maps play a key role in disaster 
reduction, mitigation, and community planning and development 
activities. Many of the flood maps in place are 15 to 30 years old and 
do not reflect recent development, and may contain inaccurate 
information about the floodplains as a result. FEMA estimated the cost 
of a multi-year map modernization plan at $750 million over a 7-year 
period. We support this multi-year effort.
    Thank you for giving us the opportunity to provide this testimony.
                                 ______
                                 

       Prepared Statement of the International Loran Association

    Dear Chairman Cochran: On behalf of the International Loran 
Association (ILA), I am writing in conjunction with your work on the 
fiscal year 2004 Department of Homeland Security Appropriations bill. 
Specifically, the ILA is asking for your support in funding the U.S. 
Coast Guard (USCG) budget to continue the modernization of the Loran-C 
system. Because Loran is the only multimodal system we have that can 
support the global positioning satellite (GPS) system, which has 
recognized vulnerabilities affecting the security of our critical 
national infrastructure and the safety of tens of millions of American 
citizens, we believe completing Loran modernization has critical 
national importance. I respectfully request that this letter be made 
part of your hearing record in conjunction with the Subcommittee's 
work.
    In recent years, because of continued strong bipartisan support 
from the Appropriations Committee and the widespread recognition of 
national vulnerabilities associated with overdependence on GPS, nearly 
$100 million in resources have been provided to modernize the Loran-C 
infrastructure through an inter-agency agreement between the USCG and 
the Federal Aviation Administration (FAA). The Coast Guard's move to 
the new Homeland Security Department now makes it imperative that 
funding be provided from the USCG budget to continue and complete the 
infrastructure modernization effort and to augment operations funds 
already provided through Coast Guard resources.
    With regard to the Subcommittee's objectives and its focus on 
national security issues, let me briefly summarize issues associated 
with GPS and Loran:
GPS and Loran
    GPS and Loran are radionavigation and timing systems that operate 
in virtually identical ways but have extremely different properties--
properties that make them uniquely synergistic systems. GPS is a 
satellite-based, high frequency, and very low signal level system, 
while Loran is a ground-based, low frequency, and a very high signal 
level system. Given their distinctly different properties, GPS and 
Loran do not share vulnerabilities, e.g. interference that may affect 
one system will not affect the other. Both GPS and Loran are multimodal 
(i.e. they can be used for aviation, marine, terrestrial and timing 
applications), and they are the only multimodal systems we have. Given 
its multimodal capabilities, Loran is the second most widely used 
navigation and timing system in the world.
    From approximately 1994-2001, the Department of Transportation and 
its agencies were driving towards a ``sole-means'' GPS system, in hopes 
of eliminating all other systems and relying totally on GPS. 
Fortunately, it is now generally acknowledged that a sole-means system 
cannot be justified on safety, security, technical, economic, or 
political grounds, and that integrated or hybrid systems provide the 
most robust, highest performance and do so in the most economic manner. 
Not only is Loran our least expensive system, it is also the most 
complementary system to GPS.
    The matrix below summarizes Loran's unique multimodal advantages, 
and graphically illustrates Loran is the only system we have that can 
provide an independent backup to GPS in the diverse roles that are 
critical to the national infrastructure and our nation's security. From 
a national perspective, it is clear that investments in the Loran 
infrastructure will result in a system that can support GPS in 
multimodal applications and that has considerable upside potential with 
regard to national security and safety, system performance, and user/
provider/manufacturer/national economic benefits.

                                                  RADIONAVIGATION SYSTEMS AND GPS AUGMENTATION SYSTEMS
                                          [Applications and Performance--* = vehicles, railroads and personal]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                       Terrestrial*       Aviation          Marine           Timing      GPS Independent
--------------------------------------------------------------------------------------------------------------------------------------------------------
Loran-C............................................................               +                +                +                +                +
VOR/DME............................................................               -                +                -                -                +
NDGPS..............................................................               +                -                +                -                -
WAAS...............................................................               +                +                +                +                -
--------------------------------------------------------------------------------------------------------------------------------------------------------

GPS Interference, Dependence, and National Security and Safety
    As a result of 9/11, the Volpe report on GPS vulnerabilities, the 
President's Commission on Critical Infrastructure Protection, and 
numerous other events/studies, Congress and the nation have become 
extremely focused on protecting the national infrastructure and safety 
of life, and seek practical, cost effective solutions to these very 
real concerns. Through these studies and reports, including the Volpe 
Center's ``Vulnerability Assessment of the Transportation 
Infrastructure Relying on the Global Positioning System,'' overwhelming 
evidence has accumulated about the need for complementary systems, 
including Loran.
    Since virtually every aspect of our national infrastructure (e.g. 
transportation, telecommunications, and power) relies on GPS, and 
because GPS is an inherently fragile system, GPS dependence is a core 
national vulnerability. Basically, GPS is extremely vulnerable to 
intentional and unintentional interference, and neither can be 
completely controlled today or in the future, regardless of system 
augmentations/modifications or monies expended on those efforts. For 
example, intentional jamming is currently underway in Iraq, as reported 
by The Washington Post, Reuters, and other news sources, and while such 
acts are recognized tactics in modern war situations, recent history 
tells us that such tactics could easily be brought to our land. I will 
note that in the August 19, 2002 Colorado Springs Gazette, General 
Lance Lord, Commander of the Air Force Space Command, stated that the 
most likely attack on U.S. satellites would be GPS jamming attacks on 
the ground.
    There have also been numerous examples of unintentional jamming, 
and these incidents exemplify how easily GPS reception can be 
disrupted. For example, GPS World recently published an article about 
GPS jamming that inadvertently continued for well over 2 months, 
completely blocking Moss Landing Harbor in California. In this case, 
the ``jammers'' were commercially available TV antennas located on 
private boats, and the owners were completely unaware of the 
interference caused by these devices. One must only turn to personal 
experience with cell phones, AM/FM radios, TV reception etc. to 
recognize that wireless communications are not perfect, and will not 
become so in our lifetime. I believe it is also reasonable to assume, 
particularly given the huge popular migration to wireless communication 
technologies, that these conditions will only be exacerbated in the 
future.
    In summary, the reality is that our national transportation, 
telecommunications, and power infrastructure is totally reliant on GPS 
and our infrastructure is vulnerable. The reality is also that GPS can 
never be made to be invulnerable, and we cannot completely control our 
radio frequency environment today or in the future. Loran is the only 
system we have that can mitigate this vulnerability and provide an 
infinite backup to GPS.
Economic and National Security Issues
    While it is clear that GPS dependence is a national vulnerability, 
it is also clear that the nation must seek the most cost-effective 
means to protect all modalities that compose the national 
infrastructure. In this regard, I think it is fair to state that 
Congress has shown exceptional, pragmatic leadership with regard to 
Loran and GPS, but in contrast, agencies and the DOT have been unable 
to formulate a cohesive policy that addresses national needs.
    For example, the FAA currently maintains the very high frequency 
omnidirectional range (VOR) and distance measuring equipment (DME) 
systems to backup GPS when GPS is unavailable. Neither system provides 
nearly the coverage or performance of Loran, and their annual O&M costs 
are roughly three times that of Loran's, which will drop to about $15 
million when the modernization is complete. In addition, VORs and DMEs 
are single modality systems (i.e. they can only be used by aviation), 
and cannot even be used in the future ``Free Flight'' system envisioned 
by the FAA. In contrast, the FAA's own studies have identified Loran as 
``the best theoretical'' backup to GPS and point out that Loran will 
fit in their future Free Flight system. Lastly, Loran is a multimodal 
system that can provide similar benefits to millions of other 
Americans, and can do so much less expensively than the single modal 
VOR/DME system.
    Another example is the situation with the USCG, which has not 
formally identified a GPS backup that would enable continued port 
operations during a period of GPS denial or unavailability. The USCG 
currently states that radar with visual aiding is the backup that can 
be used during a GPS outage. On its face, this answer completely avoids 
the basic issue, as it assumes a GPS outage would only occur during 
daylight hours with good visibility. It eschews the fundamental concern 
of continuing operations during nighttime and storms or perhaps 
terrorist activity, the very situations where a backup system is 
absolutely required. Moreover, the USCG has not identified a GPS backup 
for the automatic identification system (AIS), which will be used to 
track and monitor vessels in and around U.S. ports, and relies 
completely on GPS. Fortunately, the USCG has initiated studies on Loran 
for these roles, and the modernization program will enhance Loran's 
ability to fulfill these roles. In this regard, I will also note that 
the United States Power Squadron (USPS) has recently joined the 
National Boating Federation (NBF) in endorsing Loran's continuation and 
modernization, and written the USCG Commandant to express these views.
    In summary, Loran is not only the most cost effective system we 
have that can backup GPS and protect our multimodal national 
infrastructure, it is the only system we have that can address these 
essential national requirements. At this point in our history, Loran is 
not only a national asset, but also a national requirement; its 
modernization is a necessity.
Loran Modernization
    As indicated above, the Loran recapitalization effort has already 
yielded substantial benefits to the nation, which are reflected not 
only in national security and infrastructure enhancements across all 
modalities, but also in cost savings. For example, major progress has 
been made in replacing eleven old tube transmitters with modern, high 
efficiency transmitters and associated modern electronic systems. This 
modernization program has already enabled personnel reductions, 
increased reliability, and enhanced performance. These improvements 
will ultimately reduce Loran's annual O & M costs from $27 million to 
under $15 million, and do so while improving Loran's ability to 
complement GPS. Well into our future, Loran can act as a multimodal 
insurance policy for our national infrastructure for under $15 million 
annually.
    Last year, Congress approved $25 million for the Loran 
modernization program. The Coast Guard is effectively using those funds 
for important projects that simultaneously assist the modernization 
effort and advance security and safety benefits presented by Loran and 
GPS compatibilities. These projects are demonstrating that Loran and 
GPS uniquely work hand-in-hand, and cost-effectively benefit all modes 
of transportation users. In summary, it is hard to imagine how 
taxpayers' money could have been more productively spent to generate 
more security, safety, performance, and economic benefits for the 
nation. The Loran modernization program is indeed a wise and necessary 
investment in America's future, and I respectfully ask that the 
Committee continue this investment at its current level of $25 million.
    In conclusion, Loran is a national asset of inestimable value. 
Loran is the second most widely-used radionavigation system in the 
world; it is the most cost-effective, most complementary system to GPS; 
and it is the only other multimodal system available to meet our 
national security and transportation system objectives. The Loran 
modernization program is well underway, and already has provided 
multimodal benefits to the nation, and more will follow. I urge you to 
support fiscal year 2004 funding in the Coast Guard budget of no less 
than $25 million to continue a Loran modernization program that will 
help assure our nation's transportation safety and infrastructure 
security in the most cost effective manner for both government 
providers and private users.
                                 ______
                                 

        Prepared Statement of the Lummi Indian Business Council

    My name is Darrell Hillaire, Chairman of the Lummi Nation. The 
Lummi Nation, is located on the northern coastline of Washington State, 
and is the third largest tribe in Washington State serving a population 
of over 5,200. The modern Lummi government is heir to the traditional 
territories of the Lummi and Semiahmoo People, which covers lands 
rivers and marines areas in the United States (Washington) and Canada 
(British Columbia).
    On behalf of the Lummi Nation I want to thank you and the members 
of the Committee for the opportunity to express our concerns and 
requests regarding the fiscal year 2004 appropriation for the U.S. 
Department of Homeland Security. The following written testimony 
presents the Lummi Nation funding priorities, as well as regional and 
national concerns and recommendations for your consideration.
    The Lummi Nation's relationship with the United States of America 
means that it must also confront threats to the United States and the 
American people that are presented by World events that have occurred, 
at times, in distant lands and disturbingly in our own backyard. In 
January 2002 several members of the Lummi Nation Council and I attended 
the Tribal Homeland Security Summit. While that meeting did provide 
information is did not result in any increased security for our 
membership. Although isolated the Lummi Nation has witnessed major 
terrorist activities in our area.
  --A terrorist from the middle east was caught entering the United 
        States less than 90 miles from the Lummi Nation with plans and 
        equipment to bomb Los Angles International Airport.
  --Within the last 2 years the Federal government successfully 
        prosecuted 5 residents of our County for involvement in 
        American ``militia'' activities similar to those that led to 
        the bombing in Oklahoma City. And finally the terrorist father 
        and stepson, who held the Washington DC area in fear last year 
        were living in the nearby city of Bellingham, prior to 
        beginning their cross country shooting spree.
  --Tribal members routinely fish and hunt in remote areas of what is 
        now known as northwest Washington State that are the scene of 
        drug smuggling.
  --Tribal member routinely cross through the boarder stations into 
        Canada to visit relatives, perform and participated in 
        ceremonies and participate in Tribe to Tribe trade, tax free, 
        under the Jay Treaty of 1789. These activities also take place 
        in remote areas of British Columbia.
  --Lummi Tribal members are dependent of water resources that flow 
        from reservation aquifers fed by surface water wetlands and the 
        waters of the Nooksack river.
  --Lummi Nation's dwindling fisheries resources are also dependent on 
        these water resources. All of which are open to contamination.
  --Tribal lands are not part of the State of Washington, Lummi Nation 
        is a sovereign federally recognized Indian Government.
  --The Coastal Zone Management Plan of Washington State indicates 
        Lummi Nation Lands as a blank space on their Plan Map. The 
        Lummi Nation owns and manages 12 contiguous miles of Coastline.
    I, along with other tribal leaders, are concerned that the 
Department fully include and involve Tribal governments as it develops 
the programs services functions and activities that are designed to 
assist Tribal governments needs to meet the ever changing nature of 
terrorism. The Lummi Nation has an Office of Emergency Services, has 
developed Emergency Services Plans and works with Whatcom county and 
the State of Washington to insure that emergency services are ready and 
are provided as needed.
Tribal Government Consultation
    On behalf of the Lummi Nation I am recommending that the 
Department, following the example of many other Federal departments, 
develop a policy of planning through consultation with Tribal 
governments on a government-to-government basis. This means 
consultation prior to developing plans meant to benefit tribal 
governments. Such a policy is needed due to the unique status of Tribal 
governments within the American system of government, their strategic 
location and isolation that present unique challenges for all law 
enforcement and security activities.
Senate Bill 578 and Tribal Self-Governance
    The Lummi Nation fully supports proposed legislation to amend the 
Homeland Security Act of 2002 to include Indian tribes among the 
entities consulted with respect to activities carried out by the 
Secretary of Homeland Security, and for other purposes. The Lummi 
Nation is not only a Self-Governance Tribe--it is the first Self-
Governance Tribe. The Lummi Nation is seeking to be a full, active and 
productive partner with the United States and the Department of 
Homeland Security. This can best be accomplished through the passage of 
this legislation.
Emergency Domestic Preparedness
    Tribal governments must be part of the Department's efforts to 
strengthen America's first responder community and make our homeland 
safer from potential threats. The Lummi Nation needs financial and 
technical assistance to plan and develop its preparedness for terrorism 
as well as its coordinated terrorism prevention and security 
enhancement for first responders within Lummi reservation communities. 
The Lummi Nation needs financial assistance to develop preparedness 
plans, purchase equipment, develop and implement training, and support 
the costs of preparedness exercises to enhance our security: The Lummi 
Nation wants to be one of the ``critical infrastructure facilities as 
part of Operation Liberty Shield.''
    The Lummi Nation and other Tribal governments need the U.S. 
Homeland Security Department to recognize that there are significant 
security needs on reservations that are substantially different from 
those of metropolitan areas. There are unique needs for protection or 
preparedness of rural and isolated areas that attract infiltration 
activities.
Counter-terrorism Programs, Services, Functions and Activities
    In the planning the Department will undertake I ask you to consider 
the role of the Lummi Nation and other Tribal governments in the 
counter terrorism activities of the United States the support expanded 
responsibilities of the Department of Homeland Security.
    The Lummi Nation can provide many trained officers and other who 
want work and training to support the increased transportation security 
operations including additional screening of visitors crossing the 
border, more secondary inspection of immigrants and visitors at ports-
of-entry, increased inspection of high-risk goods and cargo at ports-
of-entry, additional flight hours for airspace security.
    The Lummi Nation can provide the administrative support and the 
labor force to support the protection of Federal assets located in our 
area. The Lummi Nation is in an excellent position to provide increased 
security between ports-of-entry on the borders.
    The Lummi Nation can develop the facilities to support the pre-
deployment of Federal emergency response assets and provide the labor 
force needed to support the activation of government emergency response 
plans.
                 tribal specific appropriation request
               $160,000 tribal emergency response offices
    Lummi Nation request funding to support the development, 
implementation and operation of its Emergency Assistance Preparedness 
and Management Plan $50,000, Office Staffing $100,000 and start-up 
equipment $10,000.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  20O5...................  2006
Funding Amount.......................  $160,000...............  $150,000...............  $150,000
Project Activity.....................  Planning...............  Operations Support.....  Operations Support
----------------------------------------------------------------------------------------------------------------

                   $150,000 emergency communications
    The Lummi Nation needs assistance to plan develop, construct and 
operate reliable, real time, reservation wide emergency communication 
Dispatch services, and the problems with 911 and complaints in delays 
getting L&O officer response. Dispatch services.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $150,000...............  $50,000................  $50,000
Project Activity.....................  Planning & Equipment...  Implementation.........  Operations Support
----------------------------------------------------------------------------------------------------------------

                 lummi nation first responders network
    The Lummi Nation is seeking financial assistance in planning 
developing implementing and operating a reservation-wide first 
responder network.
Emergency Medical Service program
    Emergency Medical Services request funds for an Ambulance, staff 
training and assistance in establishing a 24/7 First Responder and 
Emergency Medical Technician Service. Construction of an Lummi Nation 
Emergency Services Facility that would house the ambulances and support 
reservation wide emergency services first responders.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $800,000...............  $5,000,000.............  $300,000
Project Activity.....................  Planning & Training,     Construction...........  Operations Support
                                        Staffing Equipment
                                        $160,000 for 2
                                        ambulances.
----------------------------------------------------------------------------------------------------------------

Fire Department (Development preparedness, training funds)
    A shrinking State Fire Department that is dependent on volunteers 
serves the Lummi Nation. Volunteers whose training is no longer 
supported by the State of Washington due to its own budget problems. 
The Lummi Nation is seeking to work with the State to develop this 
small service base into a effective tire and first respond department.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  Planning $250,000......  $1,000,000.............  $300,000
Project Activity.....................  Planning...............  Construction...........  Operations Support
----------------------------------------------------------------------------------------------------------------

                  lummi nation citizen watch programs
    Citizens of the Lummi Nation are as concerned about the potential 
for injury and death due to terrorist attacks. Our Tribal members want 
opportunities to get involved in the process of protecting themselves. 
They have information about unusual activities in areas that are remote 
for most non-Indian citizens. Because of their unique lifestyle our 
members travel both by land and sea to areas that are not regularly 
inhabited. Therefore the Lummi Nation is requesting funding to plan, 
develop, implement and operate the Citizen Watch Program.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  Planning $250,000......  $150,000...............  $150,000
Project Activity.....................  Planning Operations and  Operations Support.....  Operations Support
                                        Implementation.
----------------------------------------------------------------------------------------------------------------

                   lummi natural resources department
    $230,000. Annual Recurring Funding Request to support the increased 
staff, support and equipment due to increased security needs and 
activities of the Lummi Nation Natural Resources Department.
Protection of Natural Resources and the People who use these Resources
    The Lummi Natural Resource Officers have concentrated on bringing 
quality cases to the Tribal Court this year. These cases have been 
coordinated with other Tribes, Washington Fish and Wildlife and 
National Marine Fisheries Service in accordance with the sovereignty 
and jurisdiction of the Lummi Nation. Additional officers has made it 
possible to spend more patrol time in tideland and beach enforcement as 
well as in the usual and accustomed area by water and land patrol.
    The Lummi Tribe possess and exercises treaty rights that are 
protected and reaffirmed, by the U.S. Federal courts (Washington vs. 
U.S., (1974) Western District Court, Ninth Circuit Court and U.S. 
Supreme Court) to preserve the Lummi people's right to harvest salmon 
and other marine resources ``in common'' with the citizens of 
Washington in their ``usual and accustomed grounds'' inland or marine 
territories. The Lummi people possess--the right to catch up to 50 
percent of the harvestable salmon in their traditional fishing areas, 
located throughout Puget Sound's marine waters. These treaty rights 
extend beyond the harvesting of fish, or salmon to include other 
species including: hunting of deer, elk; gathering, harvesting shed 
ash, clams, oysters, scallops, mussels, sea urchins, shrimp, abalone, 
and squid.
    The preservation and management for these species and their 
continued survival is are essential function of LIBC tribal government. 
The Lummi people have traditional depended upon the harvesting of 
marine and natural resources for subsistence with many contemporary 
family households rely upon the annual harvest as the primary source of 
income. The development of offshore structures and increased vessel 
traffic in and/or near traditional fishing areas will present a 
hindrance to the Lummi peoples capability to sustain an income.

----------------------------------------------------------------------------------------------------------------
 ----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $400,000...............  $230,000...............  $230,000
Project Activity.....................  Increased Staffing       Support for increased    Operations Support
                                        Increased Support        Operations.
                                        Equipment Start-up
                                        costs.
----------------------------------------------------------------------------------------------------------------

                lummi law and order (police) department
    The Lummi Law and Order Division is responsible to provide 
enforcement services to patrol the Lummi Nation Reservation and its 
``traditional hunting and fishing'' territories. This geographic area 
is much larger and extends beyond the Lummi Indian reservation exterior 
boundaries. The Lummi Nation need for patrol and enforcement is a year 
round activity in order to protect the people, their property, their 
natural resources and preserve the tribe's Treaty Right. The Lummi 
Nation controls, regulates and manages over 6,000 acres of tidelands 
and shoreline properties surrounding the Lummi Indian Reservation. 
However the Lummi Nation is entitled to harvest shellfish over 15 miles 
of ``off reservation'' coastal areas that extend up to the Canadian 
Border and all along the western coastal boundaries of Whatcom and 
Snohomish Counties, Washington State.
    The Lummi Nation treaty right guarantees the tribe and its 
membership future access and use, of existing aquatic waterways, 
without obstruction or hindrance, and further to navigate, operate 
boats or harvesting equipment in traditional fishing grounds and 
corresponding marine water areas. The Lummi traditional fishing areas 
extend beyond the physical boundaries of the Lummi Indian Reservation. 
Marine water areas extend north of the Reservation to Pt. Robert's and 
the U.S./Canada border, and south of the reservation throughout the San 
Juan Islands The tribe's traditional ``Hunting'' territory includes all 
the ceded land identified in the Pt. Elliot treat and covers over Four 
Counties in the Pacific Northwest. The Lummi Law and Order Division 
needs additional officers, salaries and support funding to address the 
security needs of both on and oil reservation activities.
$200,000 Lummi Nation Law and Order Patrol Boat
    The Lummi Nation Law and Order needs a new Patrol Boat. The costs 
for the Lummi Law and Order patrol boat are quoted to be $200,000.

----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Budget Period........................  2004...................  2005...................  2006
Funding Amount.......................  $500,000...............  $300,000...............  $300,000
Project Activity.....................  Increased Staffing       Support for increased    Operations Support
                                        Increased Support        Operations.
                                        Equipment Patrol Boat
                                        $200,000 Start-up.
----------------------------------------------------------------------------------------------------------------

    Thank you for allowing us to submit this statement of testimony on 
the fiscal year 2004 Homeland Security Appropriations.
                                 ______
                                 

         Prepared Statement of the National Boating Federation

    Mr. Chairman, Members of the Subcommittee: I am writing to 
respectfully request that this letter be made part of your hearing 
record in conjunction with the Subcommittee's work on the fiscal year 
2004 Department of Homeland Security Appropriations bill and to request 
your support of funding in the United States Coast Guard budget to 
continue the modernization of the Loran-C system. On behalf of our 2 
million members nationwide, the National Boating Federation (NBF) 
strongly supports Loran as a backup operational system to GPS, and we 
urge continuation of the Loran modernization program. We understand 
other marine users and related groups, including the United States 
Power Squadrons (USPS), have also expressed strong support for Loran 
modernization and the need for it as an operational backup to satellite 
navigation.
    The move of the Coast Guard to the new Homeland Security Department 
now makes it essential that funding be provided from the Coast Guard 
budget to continue the Loran infrastructure modernization effort. The 
Appropriations Committee has provided nearly $100 million in resources 
in recent years to modernize the Loran infrastructure through an inter-
agency agreement between the U.S. Coast Guard and the Federal Aviation 
Administration (FAA).
    As a result of the Coast Guard recapitalization effort, substantial 
progress has been made and many efficiencies implemented. When 
complete, the modernization will reduce the Loran system's operation 
and maintenance (O&M) costs from $27 million to under $15 million 
annually. This is a remarkably low annual cost, particularly given 
Loran serves so many diverse user groups.
    Loran is serving as a multi-modal GPS backup not only because of 
the navigation it provides to marine users and other modes of 
transportation, but also because of its ability to provide precise time 
services to the nation. Moreover, Loran is the second most widely used 
radio navigation system in the world; it is a national asset that is 
the most cost-effective, most complementary system to the GPS; and it 
is the only other multi-modal radio navigation system available to meet 
many of our national security and transportation system objectives.
    It is imperative that Loran be part of the nation's long term 
navigation system mix because it is essential to marine and other users 
to meet ongoing navigation, timing and other requirements.
    Last year, $25 million was provided for Loran modernization because 
of overwhelming evidence that the technology offers cost-effective 
security, safety, efficiency and other benefits.
    The NBF urges you to support fiscal year 2004 funding in the Coast 
Guard budget of no less than $25 million in resources for continuation 
of the Loran modernization program.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Cochran, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2004 budget. I am Peter LaPorte, Co-Chair of the 
National Emergency Management Association Homeland Security Committee 
and Director of District of Columbia Emergency Management Agency. In my 
statement, I am representing the National Emergency Management 
Association (NEMA), who are the state emergency management directors in 
the 50 states and the U.S. territories. NEMA's members are responsible 
to their governors for emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural, man-made, 
and terrorist caused disasters.
    This is a historic time as you have reorganized to consider the 
Department of Homeland Security's budget and the Federal Government's 
reorganization to stand-up the Department is in its infancy. It is 
critical that the fiscal year 2004 budget and future budgets do not 
lose sight of the all-hazards approach to emergency management. Our 
Nation cannot afford to build a new system for homeland security. We 
must utilize the pieces already in place to deal with natural hazards 
and other emergencies. Our most frequent opportunity to affirm our 
preparedness comes with recurrent natural hazards. In this year alone, 
the country has experienced ten major disasters, 15 emergency 
declarations, and one fire suppression declaration. While we continue 
to enhance our preparedness for domestic terrorism, we continue to 
prepare for and respond to frequent disasters of all sizes and impacts.
    The Department of Homeland Security budget provides critical 
support to state and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --The first is our concern for the elimination and lack of attention 
        to building and sustaining emergency management infrastructure 
        capabilities. This has traditionally been accomplished through 
        the Emergency Management Performance Grant (EMPG) program;
  --The second is our support for continuing and enhancing the First 
        Responder Grant program and the intention to coordinate and 
        manage these grants through the states; and
  --The third is our concern about the proposal to eliminate the Hazard 
        Mitigation Grant Program (HMGP) in order to finance a 
        competitive predisaster mitigation grant program only.
Emergency Management Infrastructure Funding
    More than any other intergovernmental program, emergency management 
and disaster response is a joint and shared responsibility among local, 
State, and Federal levels. The increase or decrease in resources for 
one level has a direct impact on the responsibility and impacts of 
disasters on the other partners. For example, a decrease in the 
capability of local governments to respond to any disaster 
automatically passes the burden of cost and activity to the state and 
Federal Governments. Unfortunately, the consequences of such policies 
are much more significant in terms of the effects of disasters on our 
citizens and communities since an inability to respond to life 
threatening emergencies at the local government level can not be 
replaced by efforts at the state and Federal levels. Additionally, the 
basic elements of comprehensive emergency preparedness cannot be 
replaced by narrow program funding for homeland security efforts.
    The President's budget proposal would eliminate the all-hazards 
focused Emergency Management Performance Grant (EMPG) program and roll 
it into the domestic terrorism focused First Responder Grant program. 
After a decade of static funding for the program, EMPG received a 
modest increase of $29 million in fiscal year 2003. Additionally, 
Congress recently affirmed the importance of EMPG in the fiscal year 
2003 appropriations bill stating:

    ``EMPG is the backbone of the Nation's emergency management system, 
builds state and local emergency management capability, is the 
foundation for first responder activities, and because this important 
activity has been severely under funded for many years. Now more than 
ever, the planning activities carried out in this program are of utmost 
importance. The conferees believe that FEMA should consider an 
allocation system for these funds that takes into consideration not 
only population, but also risk and vulnerability assessments.''

    We would like to take this opportunity to thank you for your 
support towards this important program and respectfully request that 
you not only prevent elimination of EMPG in the 2004 appropriations, 
but also address the program's shortfalls. While it is called a grant, 
EMPG is really a cost-share system which ties together the emergency 
management system of local, State, and Federal governments.
    This program was funded in fiscal year 2003 at $165 million, but a 
NEMA survey demonstrates an additional $200 million shortfall in basic 
state and local level program support in this joint effort to prepare 
the Nation's emergency management infrastructure for an adequate 
preparation and response to any catastrophe. The increased homeland 
security focus is an enhancement to our basic emergency management 
capacity and we will not succeed in building vigorous and robust 
preparedness for homeland security by taking away the basic building 
blocks of the emergency management system. An analogy for this is 
likened to the building of a second story on a house by using the very 
bricks that are integral to the foundation.
    The Nation is faced with an increased threat of terrorism and the 
necessity for increased planning and coordination with public health, 
law enforcement, agriculture and other state and local organizations. 
Further, significant grants management responsibilities with all 
response organizations cannot be accomplished effectively with current 
capabilities. An additional $200 million in funding for EMPG or other 
similar program in fiscal year 2004 is critical to addressing these 
immediate needs and sets the stage for future multi-year funding based 
upon national assessments of existing capabilities and needs.
    The elimination of this program will result in immediate, near-term 
and long-term degradations in the Nation's ability to effectively 
address emergencies and disasters. Citizens and communities that 
handled emergencies locally will no longer be able to do so and the 
responsibility and costs will be passed to the next higher level of 
government. But the costs will be greater, more frequent, and more 
dramatic. Straight-lining this funding in the current homeland security 
environment of increased programmatic activity without a commensurate 
increase in infrastructure will have a similar result. Therefore, an 
immediate increase and sustained program over the long term is 
necessary.
                     first responder grant program
    We appreciate the attention and funding that the Congress has given 
to ensuring first responders and emergency management is adequately 
prepared for domestic terrorism threats. Our emergency responders are 
better prepared today to face the various threats associated with 
terrorism because of the Federal commitment to address the war on 
terrorism that is being played out in our states, cities, and towns. 
States continue to take an all-hazards approach to disaster 
preparedness as we have integrated our domestic preparedness efforts 
into the proven systems we already use for dealing with both man-made 
and natural disasters.
    We have a great opportunity before us to build and sustain a 
national emergency infrastructure that addresses the needs of the 
entire emergency community (for example, fire, law enforcement, 
emergency medical services, emergency management, public health, and 
emergency communications) without taking away programs that are the 
basic building blocks of these components. We must seek to build 
baseline capabilities in each state that are adequately funded through 
reliable multi-year funding. NEMA continues to support Federal efforts 
to increase emergency management capacity building at the state, 
territory, and local level for personnel, planning, training, 
equipment, interoperable communications, coordination, and exercises. A 
significant Federal commitment must be made to give state, territorial, 
and local governments the tools to ensure adequate preparedness. While 
states have significantly increased their commitment to emergency 
management over the last decade, states are struggling with budgetary 
issues and the increased investments necessary to meet new demands. 
Critically important to the above is allowing funds for emergency 
responders to be used to pay for training, exercises, and security 
costs for critical infrastructure and key assets, as well as hardening 
defenses and security to these potential targets.
State Coordination
    All efforts to increase emergency management capacity building must 
be coordinated through the states to ensure harmonization with the 
state emergency operations plan, ensure equitable distribution of 
resources, and to synthesize resources for intra-state and inter-state 
mutual aid. Also, the Stafford Act, which governs the way disaster 
assistance is allocated, successfully uses states and Governors as the 
managers of Federal disaster relief funds for local governments, which 
can become overwhelmed and in need assistance when disasters occur.
    States understand the need to get funding quickly to the first 
responders and have long coordinated statewide and regionally to ensure 
adequate state assistance to local governments for emergency 
preparedness and response. There has been some discussion of the 
states' effectiveness to coordinate these programs; our data shows that 
the criticism is exaggerated. An April, 2003 NEMA Report found that of 
the 1999-2002 funds provided by the Office of Domestic Preparedness 
Grants, 76 percent of the funding has been expended or obligated and 
that of the fiscal year 2002 supplemental funds to the Federal 
Emergency Management Agency (now the Emergency Preparedness and 
Response Directorate), 69 percent of the funding has been obligated or 
expended. States continue to work to ensure the grants get out as 
quickly as possible to the localities. We suggest that the Department 
of Homeland Security provide quarterly reports on the status of Federal 
funds for State and local governments in detail to Congress and share 
those reports with key state and local government associations and 
first responder associations. We believe this would provide the 
opportunity for all interested parties to see the same data regarding 
homeland security grants as well to see where assistance is needed in 
getting grant funding distributed and most importantly, it would 
provide an ability to track our progress in protecting our communities 
from terrorism.
    Finally, Federal streamlining is necessary to consolidate the 
Federal grant application process for homeland security funds in order 
to ensure that funding can be provided faster to first responders. The 
current application submission, review, and approval process is lengthy 
and should be reviewed for efficiency.
Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
states and local governments are in the toughest fiscal situations 
since the deep recession in the early 1980s, we must be wary of 
programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. We also recommend continuation of the current match 
requirements for Emergency Operations Centers enhancements of 75 
percent Federal and 25 percent state and local.
Flexibility for Personnel to Manage the Program
    State emergency managers need to have a commitment for sustained 
Federal resources and the flexibility to ensure the hiring and training 
of sufficient professional personnel to manage the expanding 
antiterrorism programs. We are concerned that an influx of funding 
programs from the Federal Government could detract from the ``all 
hazards'' approach and we will have to turn our focus away from natural 
disaster preparedness and response and thereby actually reduce overall 
preparedness and efficiency. Building a statewide emergency management 
capability is key to ensuring preparedness across the board. 
Flexibility to use some of the first responder grants for personnel 
both at the state and local level to manage the programs is critical to 
completing the preparedness mission. As an existing funding stream, 
EMPG is used in part to fund state and local staff to manage critical 
programs and build the incremental emergency management capacity to 
prepare for the first responder grants and the coordination that will 
be required to effectively execute the program. The First Responder 
Grants should provide the same flexibility. State and local government 
emergency management and responder organizations are already working at 
capacity and need Federal support for more than just purchasing pieces 
of equipment. Flexibility based on strategic approaches should be the 
norm, not single-issue, narrowly focused grants.
    Another area where flexibility is needed is to cover the overtime 
costs associated with training and exercising. In order to send a first 
responder to train on equipment, states and localities must pay 
overtime for that person's time, but also overtime for the person who 
takes their shift to replace them on duty. The current equipment and 
exercise grants do not cover such training costs.
Standards
    Standards must be developed to ensure interoperability of 
equipment, communications, and training across state, regional, and 
local jurisdictions. In terms of establishing voluntary minimum 
standards for the terrorism preparedness programs of state and local 
governments, NEMA offers itself as a resource in this area. Our 
organization, along with other stakeholder groups such as the Federal 
Emergency Management Agency, the International Association of Emergency 
Managers, National Governors' Association, National Association of 
Counties, International Association of Fire Chiefs, and others, has 
developed and is implementing an Emergency Management Accreditation 
Program (EMAP). EMAP is a voluntary standards and accreditation program 
for state and local emergency management that is based on NFPA 
(National Fire Protection Association) 1600 ``Standard for Disaster/
Emergency Management and Business Continuity Operations'' (an ANSI or 
American National Standards Institute approved standard) and FEMA's 
Capability Assessment of Readiness (CAR). Consequence management 
preparedness, response and recovery standards are being developed in 
conjunction with those for the traditional emergency management 
functions. NEMA suggests that these standards already being 
collaboratively developed through EMAP be considered in the development 
of minimum standards for training, exercises and equipment. 
Additionally, EMAP acceptance would provide the natural mechanism for 
Federal and state agencies to meet the requirements of the Government 
Performance Results Act (GPRA). EMAP has already completed a pilot 
phase in North Carolina and North Dakota is now conducting baseline 
assessments of all states, some of which wish to pursue accreditation 
in conjunction with this initial assessment.
Specific Program Needs
    As you consider the appropriations bills this year, we ask that you 
consider other specific needs to: upgrade emergency operations centers; 
assess, plan, and provide interoperable communications equipment; 
address the lack of public safety spectrum and radio frequency; provide 
mutual aid planning assistance; provide Federal funding for state 
security clearances; provide effective warning systems for all 
citizens; complete fielding of one National Guard Civil Support Team in 
every state; and provide funding for upgraded Urban Search and Rescue 
Teams with Weapons of Mass Destruction capabilities.
    NEMA is taking the initiative to develop solutions to some of the 
issues and concerns of state government related to homeland security 
with strategic partnerships. On April 1, 2003, NEMA, along with the 
Adjutants General Association of the United States and Mitretek Systems 
launched the Center for State Homeland Security. The Center will 
provide assistance for states in implementing their homeland security 
missions by facilitating access to the best available tools, 
information and facilities. The Center will provide direct support to 
states in key areas where assistance is needed including engineering, 
analysis, program planning, management, and procurement, in addition to 
identifying best practices. This project will help states navigate the 
vast web of information on homeland security and provide a framework 
for benchmarks to assist with spending accountability.
        hazard mitigation grant program & predisaster mitigation
    The Administration's budget proposal to eliminate the post-disaster 
Hazard Mitigation Grant Program in favor of funding a competitive pre-
disaster mitigation program gives NEMA significant concern. While 
Federal costs towards disasters remain a concern, significant 
commitments must be made towards both pre-disaster and a fully funded 
post-disaster mitigation program in order to lower overall disaster 
costs.
    Last year, Congress changed the formula for post-disaster 
mitigation grants from 15 percent to 7.5 percent. This change limits 
the availability of funds for post-disaster mitigation and prevents the 
lessons learned from disasters from being immediately incorporated into 
mitigation projects to prevent losses of life and destruction of 
property. As a result, state governments no longer can offer buy-outs 
or mitigation projects to as many disaster victims. The months 
immediately following disasters provide unique opportunities to 
efficiently incorporate risk reduction measures in a very cost-
effective manner, in many cases lowering the overall cost of the 
project by leveraging other funding sources including insurance 
settlements. We ask that you restore the formula to 15 percent this 
year and also prevent the program from being eliminated.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. In a purely 
competitive grant program, lower income communities, often those most 
at risk to natural disaster will not effectively compete with more 
prosperous communities. Also, disasters graphically and vividly expose 
the need for and value of mitigation projects. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs. Damage caused by disasters would go 
largely unrepaired thereby further impacting the economic and social 
recovery of particular areas. There are not enough mitigation dollars 
available to address all of the vulnerabilities that exist in this 
country.
    Making mitigation funds available only in a predisaster competitive 
environment will set this country's mitigation efforts back by removing 
the prime motivation factor, the disaster itself. The Administration's 
proposal to eliminate post-disaster mitigation programs is not a cost-
savings initiative, because disaster costs to the Federal Government 
would significantly increase as a result of the absence of prevention. 
Pre-disaster mitigation is essential, but we need to ensure that pre-
disaster mitigation corresponds with the Disaster Mitigation Act of 
2000 that was passed overwhelmingly by the House and Senate and signed 
into law.
    NEMA calls on Congress to maximize the benefits of both HMGP and 
predisaster mitigation, while including provisions for increased 
accountability. NEMA supports increased funding for predisaster 
mitigation, but maintains that HMGP should be retained as a separate 
and fully funded post-disaster program.
                               conclusion
    As we work to implement a new Federal Department of Homeland 
Security, we must not forget about the all-hazards approach to 
emergency management and the role it plays in preventing our Nation 
from losing focus on the daily perils that we face in addition to new 
threats. We must be prudent and thoughtful in addressing the homeland 
security enhancements to our preparedness and not waste the 
opportunities we have before us today.
    Whether it is a flood in West Virginia, a hurricane in Florida, or 
tornadoes in Mississippi, states need a Federal commitment to recognize 
that each state and local government has unique disaster preparedness 
and response needs that require flexible, predictable, and adequate 
funding assistance that is coordinated with the state emergency 
management plan. I thank you for the opportunity to testify on behalf 
of NEMA and welcome any questions that you might have. Only through a 
partnership of Federal, State, local government, along with our 
citizens and businesses, can our country prepare and respond to 
emergencies and disasters. Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of the National Institute for Agricultural Security

               agricultural biosecurity in rural america
    There is a growing concern among security experts that acts of 
bioterrorism may be more likely than other forms of terrorist attack. 
America's farms, ranches, forests and our food production systems are 
vulnerable. In order to ensure continued public confidence in the 
safety of the food supply, immediate steps need to be taken to 
strengthen the technology and systems that will prevent and mitigate 
acts of bioterrorism. Local communities need to be prepared to work 
with State and Federal agencies to manage the consequences of an 
attack.
    The State Agricultural Experiment Stations and the State Extension 
Services have a long history of working with State and local 
communities to address issues of national concern. This Federal State-
local partnership has been critical to address the needs of 
agricultural producers and food processors, and it will be essential to 
develop integrated and comprehensive national programs for addressing 
agricultural biosecurity. A series of activities and projects are 
proposed that address biosecurity concerns in rural America.
          securing agricultural research facilities and agents
    Agricultural research facilities contain a vast array of biological 
and chemical agents that can be accessed and abused. The Agricultural 
Experiment Stations must develop new practices and procedures for 
insuring that they can meet emerging university security requirements 
while coordinating with their Federal laboratory partners to meet a 
different set of Federal security requirements. Improved security must 
be developed in a manner that still allows for interaction with the 
public for whom the research is being performed.
Preventing and Preparing for Agricultural Bioterrorism
    The critical time to deal with an act of bioterrorism is before it 
occurs. Potential vulnerabilities need to be assessed. Local, State and 
Federal emergency management communications networks need to be 
developed and tested for use in rural areas to address these new 
threats. Rural community leaders need to prepare management plans with 
public health, law enforcement, disaster management agencies. Farmers, 
ranchers, and foresters need education programs to recognize and 
respond to potential acts of terrorism, as well as to understand steps 
they can take to reduce their own vulnerability to attack. New vaccines 
and protective immunity needs to be developed for animals and crops.
Quickly Detecting Toxic Biological and Chemical Agents
    New sensor technologies for plants, animals and microbes need to be 
developed for detecting specific and broad categories of potential 
bioweapons. These sensors need to be mobile, broadly distributed, quick 
in their detection and analysis, and inexpensive. Sensors need to be 
developed for monitoring farms, ranches and forests to detect and 
report on the movement and dispersion of biological agents. Sensors 
must also be developed for identifying food borne pathogens in the food 
production and distribution system.
Interpreting the Appearance and Movement of Biological and Chemical 
        Agents
    Once detected, the pattern of appearance and dispersion of 
biological agents and food borne pathogens needs to be quickly 
incorporated into Geographic Information Mapping systems and computer 
models to determine if a natural event or a terrorist attack has 
occurred. Mapping and modeling make it possible to determine in hours 
and days that an event has occurred, making it possible to respond 
quickly enough to contain and mitigate the attack. Moreover, mapping 
and modeling make it possible to anticipate the movement of bioweapons 
through the landscape and the food distribution system, enabling local 
leaders to take appropriate actions to protect their communities.
Recognizing and Reporting Hazardous Events
    In addition to developing new equipment and computer technologies, 
people need to be trained to recognize the symptoms of biological 
attacks. Extension agents, veterinarians, and crop consultants need to 
be trained to recognize biological outbreaks and to know how to 
communicate appropriately with local and Federal officials. Reporting 
by individuals and mechanical sensors needs to be integrated into a 
comprehensive biosurveillance network.
Responding to and mitigating an act of bioterrorism
    In the event of an attack, local leaders need to be prepared to 
make appropriate emergency management decisions. Local public health, 
law enforcement, and disaster response teams need to be coordinated 
with prepared processes for informing and managing the public response. 
Treatment and care must be implemented immediately and appropriately. 
Early detection and treatment may mitigate most acts of bioterrorism.
            the national institute for agricultural security
    The National Institute for Agricultural Security (NIAS) is a 
nonprofit corporation developed by the State Agricultural Experiment 
Station Directors in collaboration with the State Extension Services 
and in consultation with the Colleges of Agriculture. The Institute was 
developed to address bioterrorism as it impacts U.S. agricultural and 
food production systems.
Partner Institutions
    In addition to working with all State Agricultural Experiment 
Stations, the NIAS works with and through lead universities to utilize 
their unique areas of technical and programmatic expertise to address 
national and regional biosecurity issues. NIAS is currently engaged in 
discussions regarding the development of specific pilot test projects 
with a number of universities. Federal Agencies and Appropriation 
Subcommittees All of the proposed programs described here will be 
developed in collaboration and coordination with the appropriate 
agencies within the Department of Agriculture. However, ongoing 
discussions with an array of agencies has made it clear that the 
proposed activities and projects should involve new collaboration and 
partnerships with a number of Federal agencies, including the 
Department of Homeland Security and the Department of Defense. For 
example, the agricultural research community needs to build on the 
security expertise, computer modeling, and biological research 
capacities that are supported by these departments. The six areas of 
activity described in this testimony have been designed to complement 
emerging programs and projects being planned by the Department of 
Homeland Security's Office of Science and Technology. The intent is to 
build on the biological work of the Office of Science and Technology 
through the Federal laboratories and research network, by harnessing 
the state-based agricultural research network of the State Agricultural 
Experiment Stations and Colleges of Agriculture. The agricultural 
research community has expertise and detailed knowledge of local 
conditions that will be imperative for the new programs being developed 
within the Department of Homeland Security and ongoing programs in the 
Department of Defense. Therefore the Appropriations Subcommittees for 
Homeland Security and the Department of Defense are suggested as the 
appropriate Committees of jurisdiction.
First Steps
    It is understood that there are many urgent and immediate homeland 
security concerns. However, it is also imperative that the security of 
our agricultural and food production system not be left unattended. The 
NIAS, the State Agricultural Experiment Stations, and the State 
Extension system offer a cost-effective mechanism for harnessing an 
existing infrastructure of local and state-based research, education 
and communications capacities that extends throughout the country. This 
research and extension system provides a trusted communications and 
facilitation network throughout rural America that should be linked to 
the emerging programs of the Department of Homeland Security.
    Detailed project proposals and budgets have been developed for each 
of the six areas of activity described previously in this testimony. 
More detailed resource documents are being provided to appropriate 
agency officials and will be provided to Congressional staff as 
appropriate. Each project begins with a developmental or pilot phase, 
which is then evaluated and adapted before being ramped-up for regional 
or national implementation.
    By way of example, the first area of activity includes the 
development of national guidelines for securing agricultural research 
facilities, followed by a national assessment of state-based 
facilities, to be followed by ``hardening'' state-based agricultural 
research facilities nationwide.
    Securing agricultural research facilities and agents Agricultural 
research facilities contain a vast array of biological and chemical 
agents that can be accessed and abused. The Agricultural Experiment 
Stations have a unique mix of field and laboratory research with a 
network of widely dispersed laboratory and field research sites within 
every State and territory--creating tremendous security challenges for 
research managers trying to respond to new biosecurity concerns. 
Several universities and agricultural research facilities have already 
been the targets of domestic terrorist attacks. Biological agents have 
been stolen from agricultural research laboratories. A comprehensive 
process for securing agricultural research facilities needs to be 
undertaken immediately. Research security requirements must be 
consistent nationally, but with flexibility for correct implementation 
given the unique characteristics of each site.
            AES Biosecurity Guidelines
    In order to quickly develop agricultural research security 
practices for the Agricultural Experiment Stations, the National 
Institute for Agricultural Security (NIAS) will convene panels of 
security and research experts to develop draft ``AES Biosecurity 
Guidelines.'' These guidelines will outline suggestions for (1) 
biosecurity site assessments, (2) policies for managing personnel 
access to research facilities and equipment, (3) developing new 
personnel training programs, and (4) managing access to sensitive 
research information. The expert panels and working groups will seek to 
include representatives from the appropriate Federal agencies. The 
workshops will include leaders from the Agricultural Colleges and the 
Agricultural Experiment Stations, but also field station and laboratory 
managers. The draft AES Biosecurity Guidelines will be shared with all 
Experiment Stations through web-based conferences, where each State 
will have the opportunity to gather the appropriate mix of specialists 
to review and evaluate the draft guidelines. Several States might be 
utilized as pilot sites for testing the new guidelines; the selected 
Experiment Stations would use test the proposed national guidelines to 
determine what final adjustments might be needed. After testing, all 
State Agricultural Experiment Stations could utilize the national 
guidelines to conduct site security assessments, develop new personnel 
guidelines, and to develop new training programs. After completing the 
site security assessments, each institution would be able to clearly 
define local security enhancements that would be needed to reach a 
consistent national standard of security for field and laboratory 
research facilities and equipment.
Closing
    The National Institute for Agricultural Security will strive to 
facilitate collaboration between the state-based agricultural research 
and extension communities and our Federal partners to address 
biosecurity and agricultural security concerns. The Institute stands 
ready to provide any additional information that may be of interest to 
the appropriate Congressional Committees and offices.
                                 ______
                                 

    Prepared Statement of the Pilot Disaster Resistant Universities

    Chairman Cochran, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request continued funding in the fiscal year 2004 appropriations bill 
of your Subcommittee.
Program Background
    The FEMA Disaster Resistant University (DRU) Initiative was created 
to reduce the potential for large loss of life and hundreds of millions 
of dollars in key Federal research and billions of dollars in damage 
from natural disasters. The University of California/Berkeley was the 
prototype and founding member of the program. In October 2000, FEMA 
selected five additional universities to join Berkeley in the pilot 
phase of the program: the University of Alaska/Fairbanks, University of 
Miami, University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The selected universities have two 
elements in common: a vulnerability to disasters and a commitment to 
improve protection of students, faculty and staff, and one of our most 
valuable assets, intellectual property. The pilot program was funded 
with $700,000 in grants from predisaster mitigation funds and the U.S. 
Fire Administration.
Purpose of the Program
    The purpose of the program is to help the nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
Need for the Program
    The Federal Government funds nearly $15 billion in university 
research annually. This Federal investment in the vital intellectual 
property of the nation should be protected.
    Universities are critical to the economic health of surrounding 
communities. Their ability to resume operations quickly following a 
disaster greatly speeds the recovery of the entire community. For 
example, the University of Miami is the 3rd largest employer in Miami-
Dade County and has a $1.9 billion a year impact on the community; the 
University of Washington is the 3rd largest employer in the state of 
Washington and has a $3.4 billion impact; the University of North 
Carolina at Wilmington is the 3rd largest employer in the area and is a 
$400 million annual benefit to an eight county area; the University of 
California, Berkeley is the 5th largest employer in the Bay area and 
generates $1.1 billion annually in personal income in the Bay area; 
Tulane University is the largest employer in Orleans Parish and the 5th 
largest in Louisiana with a $1.5 billion gross impact on New Orleans; 
and the University of Alaska/Fairbanks is the largest civilian employer 
in the Tanana Valley. In addition, many universities operate medical 
schools which provide essential clinical services to the residents of 
their communities and adjacent areas.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison, the earthquake damage to the 
University of California/Northridge and the University of California at 
Los Angeles, the facility damage and loss of life at the University of 
Maryland as result of a tornado, hurricane damage to the University of 
North Carolina/Wilmington, the earthquake damage to the University of 
Washington/Seattle, and the declaration by the FBI that our 
universities are ``soft'' targets for terrorists.
Status of the Program and Accomplishments
    Although no funding was made available in 2002, great progress has 
been made by the universities with the modest 2001 Federal investment. 
Participation in the DRU brought high level commitment and a framework 
for disaster planning and mitigation activities that helped 
universities focus and enhance efforts to protect their students, 
faculty, staff, vital research, and facilities.
    Each university has made significant improvements in developing 
awareness campaigns on campus; assessing their risks, vulnerabilities, 
and mitigation options, prioritizing and implementing some of the 
mitigation options; updating emergency operations plans; and developing 
and implementing plans for business continuity. The universities have 
improved disaster resistant design specifications for buildings and 
their contents, incorporated disaster resistance into campus master 
planning, and partnered more closely with governmental and private 
entities.
    These six pilot universities are making strong efforts to protect 
their collective 120,567 students, 60,214 employees, 1,550 buildings 
valued at over $11,820,458,000, and $1,600,710,000 in annual research.
    In meetings in March with representatives of the DRUs, FEMA staff 
expressed strong interest in continuing to work on this program. The 
six participating Disaster Resistant Universities look forward to 
continuing their progress and to mentoring the six new universities 
which FEMA will be selecting soon.
Congressional Interest
    We very much appreciate the support Congress has given this program 
the last 2 years. The Conference Report on the VA, HUD and Independent 
Agencies Appropriations bill for 2002 contained the following language: 
``The conferees believe that many of the nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.'' [House Report 107-272, page 
155]
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following: The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following: The Committee directs 
FEMA to continue the Disaster Resistant University Program with grants 
of $500,000 to each of the six pilot Disaster Resistant Universities 
and $100,000 each to at least six additional universities, including at 
least one HBCU, to join the program.
Request for fiscal year 2004
    In fiscal year 2003, the program was funded through the Federal 
Emergency Management Agency section of the VA, HUD and Independent 
Agencies section of the Omnibus Appropriations Bill. In fiscal year 
2004, the program will be under Department of Homeland Security, 
Directorate of Emergency Preparedness and Response.
    We request your consideration of the following language in the 
fiscal year 2004 Department of Homeland Security Appropriations Bill:

    The Committee directs the Department of Homeland Security 
Directorate of Emergency Preparedness and Response (FEMA) to continue 
the Disaster Resistant University Program by providing continued 
support of $500,000 to each of the six pilot Disaster Resistant 
Universities to implement mitigation projects, $500,000 for each of the 
new universities added to the program in fiscal year 2003, and $200,000 
each to at least six additional universities to join the program in 
fiscal year 2004.

    We again thank you for the opportunity to provide written comment 
on the need for funding of this important program. We would welcome the 
opportunity to discuss the program further with your staff.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Emergency Preparedness and Response Directorate within 
the new Department of Homeland Security.
    Transition to the new department is an on-going process that will 
undoubtedly bring both challenges and opportunities. However, in the 
current national security environment, it has become more important 
than ever to ensure that the Coast Guard and the former Federal 
Emergency Management Agency (FEMA) have the resources they need to 
fulfill their multiple missions. Both have vital new functions and 
priorities specifically related to homeland security that must be 
adequately funded. But both also have other traditional missions that 
are equally vital to public health and safety, economic well-being, and 
environmental protection. For the Coast Guard, these include activities 
such as aids to navigation, vessel and facility inspections, emergency 
response, and mariner licensing. For the former FEMA, key traditional 
missions include the National Flood Insurance Program, flood map 
modernization, hazard mitigation, and response to floods and other 
natural disasters. Nowhere are these services more important than on 
the Upper Mississippi River System, which supports a vital link in the 
inland waterway transportation system, some of the nation's most 
productive agricultural land, population centers ranging from small 
towns to major metropolitan areas, and a nationally significant 
ecosystem.
                              coast guard
Operating Expenses
    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2004 budget proposal 
includes $4.838 billion for this account, an increase of 10 percent 
from the fiscal year 2003 enacted level. However, much of this increase 
is targeted to homeland security and maritime projects, including new 
Maritime Safety and Security Teams, Sea Marshall positions, and 
increased search and rescue staffing. These initiatives are important 
in their own right, and some will undoubtedly help enhance other Coast 
Guard missions. However, it is also true that there will be increased 
demands on other mission areas to support security operations.
    The Coast Guard's stated objective is to sustain traditional 
missions near their pre 9/11 levels. These traditional missions are 
critical to the safe, efficient operation of the Upper Mississippi 
River and the rest of the inland river system. Under these mission 
areas, the Coast Guard maintains navigation channel markers, regulates 
a wide range of commercial vessels in the interest of crew and public 
safety, and responds to spills and other incidents. The beneficiaries 
include not only commercial vessel operators, but also recreational 
boaters; farmers and others who ship materials by barge; and the 
region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. The states understand that these decisions were driven by 
the need for the Coast Guard to operate as efficiently as possible, and 
the states support that goal. However, such changes must be carefully 
considered and their effects monitored, particularly in light of the 
increased demands that we are now placing on the personnel and assets 
that remain in the region. The UMRBA is quite concerned that staff 
reductions and resource constraints have combined to impair the Coast 
Guard's ability to serve as an effective, proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Temporary 
adjustments have been necessary as the Coast Guard strives to meet 
immediate needs, but these should not become long term standard 
operating procedures. Toward that end, the UMRBA supports the 
President's fiscal year 2004 budget request for the Coast Guard's 
Operating Expenses account and urges Congress to ensure that sufficient 
resources from within this account are allocated to the Coast Guard's 
inland river work.
Priorities and Procedures in a New Environment
    The UMRBA calls on Congress to ensure that the Coast Guard's 
partners and stakeholders are consulted as decisions are made regarding 
how to execute traditional missions in the new security environment. 
For example, the Office of Management and Budget has called for a study 
of the Aids to Navigation Program to determine whether this function 
should be privatized. While the states do not oppose such a study per 
se, we do have reservations concerning the efficacy and efficiency of 
privatization in this instance. Moreover, it is absolutely essential to 
fully consider the perspectives of the navigation industry and others 
who rely on these aids before making any such decision. The states 
would oppose any fees for aids to navigation or other navigation 
assistance services. The nation's navigable waterways are a critical 
part of our transportation infrastructure, just as is the national 
highway system, and the benefits of the waterways system accrue quite 
broadly. Therefore, providing the basic services required to operate 
that infrastructure safely is a fundamental role of government.
    The Coast Guard is reportedly considering a range of other 
potential changes, such as reducing non-security contingency planning, 
suspending certain safety inspections, reducing some enforcement 
efforts, and suspending response to spills of up to 500 gallons from 
domestic vessels. These potential changes could have profound 
implications, including diminished public and worker safety, increased 
demands on state and local jurisdictions, and reduced environmental 
protection. They should not be undertaken without extensive 
consultation with potentially affected parties.
Boat Safety Grants
    The Coast Guard's boat safety grants to the states have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts. This is particularly true with major 
events, such as the upcoming commemoration of the Lewis and Clark 
expedition, which is expected to draw large numbers of boaters to the 
St. Louis area, and the Grand Excursion 2004, during which flotillas of 
boaters will retrace President Millard Fillmore's 1,854 steamboat 
journey from Rock Island, Illinois to the Twin Cities. Boat safety 
training and law enforcement are key elements of prevention. In fiscal 
year 2003, Congress recognized the importance of boating safety, 
providing $71 million for the state boat safety grants. Unfortunately, 
this year the Coast Guard continued its long-standing practice of 
requesting only $59 million for state grants. The UMRBA urges Congress 
to appropriate the full authorized amount in fiscal year 2004 to the 
Boat Safety account to support the states in this important mission.
                  emergency preparedness and response
Hazard Mitigation
    Among those programs now administered by the Department of Homeland 
Security's Emergency Preparedness and Response Directorate, UMRBA is 
particularly interested in those that help mitigate future flood 
hazards. Mitigation, which is the ongoing effort to reduce or eliminate 
the impact of disasters like floods, can include measures such as 
relocating homes or community facilities off the floodplain, elevating 
structures, and practicing sound land use planning. Mitigation planning 
and implementation measures are essential to reducing the nation's 
future disaster assistance costs. Given the importance of mitigation, 
UMRBA supports the new Pre-Disaster Mitigation (PDM) grant program for 
which Congress provided first-time funding of $150 million in fiscal 
year 2003 and for which the President has requested $300 million in 
fiscal year 2004. The UMRBA recognizes that there are concerns about 
how PDM grant funds will be allocated, including the effect of relying 
solely on benefit/cost analysis. In addition, there is limited 
experience in administering the new program. Applications for planning 
grants ($248,375 per state) are due April 30 and FEMA has yet to issue 
guidance for the competitive grants. Despite these growing pains of a 
new program, the PDM grant program holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have--not experienced a major disaster and thus have not had 
access to post-disaster mitigation assistance through the Disaster 
Relief Fund. In addition, pre-disaster mitigation assistance is an 
effective means of meeting the ongoing need in all communities to plan 
for future floods and reduce their vulnerability before the next flood 
disaster.
    Unfortunately, the Administration's support for the new Pre-
Disaster Mitigation program is based on the premise that the existing 
post-disaster Hazard Mitigation Grant Program (HMGP) will be 
eliminated. This would be a major mistake. Although the PDM program 
will be very useful, funding for that program should not come at the 
expense of the HMGP. The HMGP has been a particularly popular and 
enormously helpful program. Authorized under Section 404 of the 
Stafford Act, the HMGP provides grants to states and local governments 
to implement long-term hazard mitigation measures after a major 
disaster declaration. Because grant funds are made available during the 
immediate recovery from a disaster, it offers a particularly attractive 
option for communities that may not otherwise consider mitigation. It 
is critical to maintain this post-disaster option, in addition to 
creating a new pre-disaster mitigation option. Local communities need 
both. In addition, by retaining the HMGP, mitigation assistance 
specifically for flood damages would continue to be available to 
communities that experience disastrous flooding. In contrast, flood 
mitigation projects under the new pre-disaster program will need to 
compete for funding with mitigation projects for a wide variety of 
other potential disasters, thus diminishing the likelihood that flood 
mitigation needs will be met.
    Therefore, UMRBA supports funding of $300 million in fiscal year 
2004 for the Pre-Disaster Mitigation grant program and urges Congress 
to continue to make post-disaster mitigation funding available through 
the HMGP, by authorizing allocation of the full 15 percent of disaster 
relief funding to the HMGP.
Flood Map Modernization
    UMRBA enthusiastically supports the Administration's proposal to 
provide $200 million to modernize and digitize Flood Insurance Rate 
Maps (FIRMs). Among other things, flood maps are used to determine 
risk-based National Flood Insurance Program premium rates and develop 
disaster response plans for Federal, State, and local emergency 
management personnel. However, most flood maps are over 15 years old 
and are rapidly becoming obsolete. Many flood maps are outdated by the 
effects of land use changes in the watersheds. When outdated maps 
underestimate flood depths, it can often lead to floodplain development 
in high risk areas. It is therefore important that flood maps be 
updated on an ongoing basis and in a timely way.
    The Corps of Engineers will soon complete its Flow Frequency Study, 
updating the discharge frequency relationships and water surface 
profiles for approximately 2,000 miles of the Upper Mississippi, Lower 
Missouri, and Illinois Rivers. This data will have a variety of uses, 
including updating Flood Insurance Rate Maps used by hundreds of flood 
prone communities along these rivers. The Corps and FEMA have estimated 
that 4,237 map panels in the 130 counties along these rivers will need 
to be revised at a cost of approximately $30 million. Using data from 
the Corps study will be a far more cost-effective way to update FIRMs 
than having FEMA independently study flood hazards and update the maps. 
UMRBA therefore urges Congress to designate funding specifically for 
the Upper Mississippi flood mapping project and direct FEMA and the 
Corps to coordinate their efforts to advance FIRM updates.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
